APPENDIX

TABLE OF CONTENTS
Appendix A – Appellate Opinion Affirming in
Part, Reversing in Part, and Remanding to
District Court (9th Cir. Feb. 6, 2019) .................... 1a
Appendix B – District Court Order Granting
Joint Motion to Dismiss Plaintiffs’ Amended
Complaint (D. Mont. June 23, 2017) ................... 44a
Appendix C – District Court Order Granting
First Joint Motion to Dismiss with Leave to
Amend (D. Mont. Feb. 14, 2017) .......................... 53a
Appendix D – Order Denying Petition for Panel
Rehearing and for Rehearing En Banc (9th Cir.
Mar. 15, 2019) ...................................................... 69a
Appendix E – Judgment in a Civil Case (D.
Mont. June 23, 2017) ........................................... 71a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
THE DEPOT INC.;
UNION CLUB BAR INC..;
TRAIL HEAD, INC.,

No. 17-35597

PlaintiffsAppellants,

[Filed 02/06/2019]

OPINION

v.
CARING FOR
MONTANANS, INC.,
FKA Blue Cross and
Blue Shield of
Montana, Inc.,
HEALTH CARE SERVICE
CORP.,
DefendantsAppellees.
Appeal from the United States District Court
for the District of Montana
Dana L. Christensen, Chief Judge, Presiding
Argued and Submitted December 7, 2018
Seattle, Washington
Filed February 6, 2019

2a
Before: William A. Fletcher and Jay S. Bybee, Circuit
Judges, and Larry A. Burns, Chief District Judge.
Opinion by Judge Bybee
_________________________________________________
SUMMARY**
_________________________________________________
Employee Retirement Income Security Act
The panel affirmed in part and reversed in part
the district court’s dismissal of an action brought
under ERISA and Montana state law against health
insurance companies and remanded for further
proceedings.
The companies marketed health insurance plans,
branded “Chamber Choices,” to members of the
Montana Chamber of Commerce. Three small
employers, Chamber members that provided their
employees with healthcare coverage under Chamber
Choices plans, alleged misrepresentations in the
marketing of the plans.
Affirming the district court’s dismissal of the
ERISA claims, the panel held that plaintiffs failed to
state a claim for breach of fiduciary duty under 29
U.S.C. § 1132(a)(2) in defendants’ alleged charging of
excessive premiums. The panel held that, in secretly
charging excessive premiums, defendants did not act
as fiduciaries of the plans because they did not
 The Honorable Larry A. Burns, United States District Judge

for the Southern District of California, sitting by designation.
** This summary constitutes no part of the opinion of the court.

It has been prepared by court staff for the convenience of the
reader.

3a
exercise discretion over plan management or control
over plan assets. Plaintiffs also failed to state a claim
for equitable relief under § 1132(a)(3) for prohibited
transactions in imposing unreasonable charges for
kickbacks and unrequested benefits because
plaintiffs’ requested relief of restitution or
disgorgement was not equitable in nature.
The panel reversed the dismissal of plaintiffs’
state-law claims, based on defendants’ alleged
misrepresentations that the premiums charged
reflected the actual medical premium amount. The
panel held that ERISA did not expressly preempt the
state-law claims because the claims did not have a
reference to or an impermissible connection with an
ERISA plan, and therefore did not “relate to” an
ERISA plan. The state-law claims also were not
conflict-preempted by ERISA. The panel nonetheless
agreed with the district court that plaintiffs’
allegations did not state with particularity the
circumstances of the alleged fraud, as required by
Federal Rule of Civil Procedure 9(b). The panel
therefore reversed the dismissal with prejudice of the
state-law claims so that plaintiffs could amend their
complaint to state the fraud allegations with greater
particularity. The panel noted, however, that the
district court was also free on remand to decline to
exercise supplemental jurisdiction over the state-law
claims.
_________________________________________________
COUNSEL
Kenneth J. Halpern (argued), Rachana A. Pathak,
Dana Berkowitz, and Peter K. Stris, Stris & Maher
LLP, Los Angeles, California; John Morrison,

4a
Morrison Sherwood Wilson & Deola PLLP, Helena,
Montana; for Plaintiffs-Appellants.
Anthony F. Shelley (argued) and Theresa Gee, Miller
& Chevalier Chartered, Washington, D.C.; Michael
David McLean and Stefan T. Wall, Wall McLean &
Gallagher, PLLC, Helena, Montana; for DefendantAppellee Caring for Montanans, Inc.
Stanley T. Kaleczyc (argued), M. Christy S. McCann,
and Kimberly A. Beatty, Browning Kaleczyz Berry &
Hoven P.C., Helena, Montana, for DefendantAppellee Health Care Services Corporation.
_________________________________________________
OPINION
BYBEE, Circuit Judge:
Plaintiffs are three small employers in Montana
who are members of the Montana Chamber of
Commerce. Defendants are health insurance
companies that marketed fully insured health
insurance plans to the Chamber’s members branded
“Chamber Choices.” From 2006 until 2014, plaintiffs
provided their employees with healthcare coverage
under Chamber Choices plans, and did so based on
defendants’ representations that the monthly
premiums would reflect only the cost of providing
benefits. But according to plaintiffs, these
representations were false—defendants padded the
premiums with hidden surcharges, which they used to
pay kickbacks to the Chamber and to buy unauthorized
insurance products.
Upon learning of these surcharges, plaintiffs filed
suit against defendants, asserting two claims under the
Employee Retirement Income Security Act of 1974
(“ERISA”), 29 U.S.C. § 1001 et seq., as well as several

5a
state-law
claims
based
on
defendants’
misrepresentations. The district court dismissed all of
the claims, concluding that plaintiffs failed to state
actionable claims under ERISA while at the same time
concluding that plaintiffs’ state-law claims are
preempted by ERISA. We affirm the district court’s
dismissal of plaintiffs’ ERISA claims, reverse the
dismissal of plaintiffs’ state-law claims, and remand.
I. BACKGROUND
A. Factual Background
Plaintiffs are three small businesses operating in
Montana.1 The Depot, Inc. is a steakhouse; Union Club
Bar, Inc. is a bar; and Trail Head, Inc. is a sporting
goods retailer. During the period relevant to this
lawsuit, plaintiffs were members of the Montana
Chamber of Commerce. Blue Cross Blue Shield of
Montana (“BCBSMT”)—an insurance company that is
now known as Caring for Montanans, Inc. (“CFM”)—
marketed “fully-insured” group health insurance plans
to the Chamber’s employer-members known as
“Chamber Choices.” Health Care Service Corp.
(“HCSC”) purchased the health insurance business of
BCBSMT in July 2013 and marketed the Chamber
Choices plans thereafter.
From 2006 to 2014, plaintiffs enrolled in Chamber
Choices plans and paid monthly premiums to
defendants in exchange for health insurance coverage
for their employees. Coverage for plaintiffs’ employees
hinged on plaintiffs paying the required monthly
1 Because this case comes to us on review of a motion to dismiss,

we accept as true the factual allegations in the operative
complaint. See Askins v. U.S. Dep’t of Homeland Sec., 899 F.3d
1035, 1038 (9th Cir. 2018).

6a
premiums. According to plaintiffs, “[i]n the course of
marketing Chamber Choices,” defendants represented
that the premiums would be equal to the “actual
medical premium”—i.e., “the cost of providing
insurance benefits to covered individuals plus
administrative costs” and “[not] for any purpose other
than to pay for the purchased health insurance
coverage.” Plaintiffs accordingly relied on that
representation in choosing to participate.
All parties agree that each Chamber Choices plan
constituted an “employee welfare benefit plan” subject
to ERISA. 29 U.S.C. § 1002(1); see Fossen v. Blue Cross
& Blue Shield of Mont., Inc., 660 F.3d 1102, 1109–10
(9th Cir. 2011). According to the Member Guide for
one of the Chamber Choices plans2—which provides a
summary of benefits available to covered employees
for the relevant year—the employers (i.e., plaintiffs),
not BCBSMT, were the named “plan administrator[s]”
and fiduciaries under ERISA. Defendants, however,
performed most of the claim management and
administration duties. Plaintiffs’ role was limited to
deducting monthly premiums from their employees’
wages to send to defendants for coverage and notifying
defendants if an employee lost eligibility for coverage.
The Member Guide also purported to allow
defendants to make changes to the terms of the policy
in the following modification provision:
[BCBSMT] may make administrative changes
or changes in dues, terms or Benefits in the
Group Plan by giving written notice to the
2 Plaintiffs incorporated the Member Guide by reference in their

complaint. See Santomenno v. Transamerica Life Ins. Co., 883
F.3d 833, 836 n.2 (9th Cir. 2018). According to plaintiffs, the
Member Guide is representative of the Chamber Choices plans.

7a
Group and/or purchasing pool member at least
60 days in advance of the effective date of the
changes. Dues may not be increased more
than once during a 12-month period, except
as allowed by Montana law.
The requirement that enrollees receive 60 days’
advance notice of modifications is consistent with
federal and state laws governing group health plans,
including plans not subject to ERISA. See 29 C.F.R. §
2590.715-2715(b) (requiring 60 days’ advance notice of
“any material modification . . . in any of the terms of
the plan or coverage”); Mont. Code Ann. § 33-22107(3)(a) (requiring 60 days’ advance notice of “a
change in rates or a change in terms or benefits”).
Plaintiffs allege that, while they subscribed to
Chamber Choices plans, defendants unlawfully padded
the premiums with two surcharges without plaintiffs’
knowledge or consent. First, from 2006 to 2014,
defendants secretly embedded a surcharge into the
premiums, which they used to pay kickbacks to the
Chamber. These kickbacks were designed to persuade
the Chamber to continue to market defendants’ plans
to its members. Second, from 2008 to 2014, defendants
secretly embedded an additional surcharge into the
premiums that defendants used to purchase “additional
insurance products that [plaintiffs] did not request or
authorize.” Plaintiffs further allege that defendants
took efforts to conceal these surcharges. Beginning in
2009, defendants began “channeling the kickbacks to
the Chamber through an insurance agent and
channeling a share of the [surcharges] into a ‘rate
stabilization’ account.” And beginning in 2012,
defendants began “making cryptic notations that
itemized certain charges on the bills” in an effort to
“reduce [their] own legal risk.”

8a
In February 2014, the Montana Commissioner of
Securities and Insurance fined BCBSMT $250,000 for
illegal insurance practices under Montana law,
including billing in excess of the actual medical
premium and paying kickbacks to the Chamber. See
Mont. Code Ann. §§ 33-18-208, 33-18-212. After the
Commissioner’s findings were publicly released in
March 2014, a group of Chamber Choices participants
filed a class action suit against defendants in state
court alleging claims of breach of fiduciary duty, breach
of contract, unfair and deceptive trade practices, and
unjust enrichment. Mark Ibsen, Inc. v. Caring for
Montanans, Inc., 371 P.3d 446, 448 (Mont. 2016). After
defendants unsuccessfully tried to remove the case to
federal court, the state trial court dismissed the
lawsuit, finding that the plaintiffs’ claims were based
on statutory violations and that the relevant state
statute did not provide a private right of action. Id. at
448–49. The Montana Supreme Court affirmed. Id. at
455.
B. Procedural History
Plaintiffs filed this lawsuit in federal court in June
2016. In their original complaint, plaintiffs raised two
ERISA claims: a breach of fiduciary duty claim under
29 U.S.C. § 1132(a)(2), and a prohibited interestedparty transaction claim under 29 U.S.C. § 1132(a)(3).
Plaintiffs also raised state-law claims for breach of
contract, breach of fiduciary duty, breach of the
implied covenant of good faith and fair dealing,
negligent misrepresentation, unjust enrichment, and
unfair trade practices under the Montana Unfair
Trade Practices and Consumer Protection Act, Mont.
Code Ann. § 30-14-101 et seq.

9a
The district court dismissed the original complaint
without prejudice. The court concluded that defendants
did not satisfy ERISA’s definition of a “fiduciary” for
purposes of the breach of fiduciary duty claim, and that
plaintiffs were not seeking “appropriate equitable
relief” as required for the prohibited transaction claim.
The court also concluded that plaintiffs’ state-law
claims were preempted by ERISA because they
constituted “alternative enforcement mechanisms” to
the prohibited transaction claim.
Plaintiffs filed their amended complaint in March
2017. As before, plaintiffs assert two claims under
ERISA: a breach of fiduciary duty claim under 29
U.S.C. § 1132(a)(2), and a prohibited transaction claim
under 29 U.S.C. § 1132(a)(3). Plaintiffs also assert
state-law claims for fraudulent inducement,
constructive fraud, negligent misrepresentation,
unjust enrichment, and unfair trade practices. The
district court dismissed all of the claims, this time with
prejudice. The court concluded that plaintiffs failed to
remedy the defects in their ERISA claims and that
plaintiffs’ state-law claims (including the new fraud
claims) were still preempted by ERISA. The court also
concluded that plaintiffs’ allegations of fraud do not
satisfy the heightened pleading requirements under
Federal Rule of Civil Procedure 9(b). Plaintiffs timely
appealed, and we have jurisdiction pursuant to 28
U.S.C. § 1291.

10a
II. STANDARD OF REVIEW
On appeal, plaintiffs challenge the district court’s
dismissal of their ERISA claims as well as the dismissal
of their state-law claims. We review de novo a district
court’s order granting a motion to dismiss for failure to
state a claim under Federal Rule of Civil Procedure
12(b)(6). Santomenno v. Transamerica Life Ins. Co.,
883 F.3d 833, 836 (9th Cir. 2018). To survive a motion
to dismiss, the complaint “must contain sufficient
factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.’” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). We will thus
“affirm a dismissal for failure to state a claim where
there is no cognizable legal theory or an absence of
sufficient facts alleged to support a cognizable legal
theory.” Interpipe Contracting, Inc. v. Becerra, 898
F.3d 879, 886 (9th Cir. 2018) (quoting L.A. Lakers,
Inc. v. Fed. Ins. Co., 869 F.3d 795, 800 (9th Cir. 2017)).
And although “we accept as true all factual
allegations,” we do not “accept as true allegations that
are conclusory.” In re NVIDIA Corp. Sec. Litig., 768
F.3d 1046, 1051 (9th Cir. 2014). Nor do we consider
factual assertions made for the first time on appeal, as
“our review is limited to the contents of the complaint.”
Allen v. City of Beverly Hills, 911 F.2d 367, 372 (9th
Cir. 1990); see Amgen Inc. v. Harris, 136 S. Ct. 758,
760 (2016) (per curiam).
We also review de novo a dismissal for failure to
satisfy Federal Rule of Civil Procedure 9(b), which
requires a party alleging fraud to “state with
particularity the circumstances constituting fraud.”
WPP Luxembourg Gamma Three Sarl v. Spot
Runner, Inc., 655 F.3d 1039, 1047 (9th Cir. 2011)
(quoting Fed. R. Civ. P. 9(b)).

11a
III. ERISA CLAIMS
We begin with plaintiffs’ claims under ERISA.
“Congress enacted ERISA to ‘protect the interests of
participants in employee benefit plans and their
beneficiaries’ by setting out substantive regulatory
requirements for employee benefit plans” and “an
integrated system of procedures for enforcement.”
Aetna Health Inc. v. Davila, 542 U.S. 200, 208 (2004)
(internal alterations omitted) (first quoting 29 U.S.C. §
1001(b); then quoting Mass. Mut. Life Ins. Co. v.
Russell, 473 U.S. 134, 147 (1985)). Relevant here,
ERISA’s enforcement scheme provides a cause of action
against plan fiduciaries for breach of their fiduciary
duties, 29 U.S.C. § 1132(a)(2), and a cause of action to
remedy plan or ERISA violations—including prohibited
interested-party
transactions—with
“appropriate
equitable relief,” id. § 1132(a)(3). Plaintiffs bring claims
against defendants under both provisions. We address
each in turn.
A. Breach of Fiduciary Duty Claim
Plaintiffs claim that, by collecting and concealing
the premium surcharges, defendants breached their
fiduciary duties—including a duty “to act ‘solely in the
interest of the participants and beneficiaries,’” Varity
Corp. v. Howe, 516 U.S. 489, 506 (1996) (quoting 29
U.S.C. § 1104(a)(1))— and are thus liable under 29
U.S.C. § 1132(a)(2).3 But to breach a fiduciary duty,
one must be a fiduciary. And here, defendants were
3 Under § 1132(a)(2), a plan participant, beneficiary, or fiduciary

may bring “[a] civil action . . . for appropriate relief under [§
1109].” Section 1109 imposes personal liability upon “[a]ny
person who is a fiduciary with respect to a plan who breaches
any of the responsibilities, obligations, or duties imposed upon
fiduciaries by [ERISA].” 29 U.S.C. § 1109(a).

12a
not acting as fiduciaries when taking the action
subject to plaintiffs’ complaint. We thus affirm the
district court’s dismissal of plaintiffs’ breach of
fiduciary duty claim.
There are two types of fiduciaries under ERISA.
First, a party that is designated “in the plan
instrument” as a fiduciary is a “named fiduciary.” 29
U.S.C. § 1102(a)(2). Second, ERISA provides the
following definition of what is sometimes referred to
as a “functional” fiduciary:
[A] person is a fiduciary with respect to a plan
to the extent (i) he exercises any discretionary
authority or discretionary control respecting
management of such plan or exercises any
authority or control respecting management
or disposition of its assets, (ii) he renders
investment advice for a fee or other
compensation, direct or indirect, with respect
to any moneys or other property of such plan,
or has any authority or responsibility to do so,
or (iii) he has any discretionary authority or
discretionary
responsibility
in
the
administration of such plan.
Id. § 1002(21)(A); Santomenno, 883 F.3d at 837.
Because a person4 is a fiduciary under this provision
only “to the extent” the person engages in the listed
conduct, a person may be a fiduciary with respect to
some actions but not others. Pegram v. Herdrich, 530
U.S. 211, 225–26 (2000) (quoting 29 U.S.C. §
1002(21)(A)); see Acosta v. Brain, 910 F.3d 502, 519 (9th
Cir. 2018) (“[W]e must distinguish between a fiduciary
4 ERISA’s definition of “person” includes “corporation[s]” and

other “association[s].” 29 U.S.C. § 1002(9).

13a
‘acting in connection with its fiduciary responsibilities’
with regard to the plan, as opposed to the same
individual or entity ‘acting in its corporate capacity.’
Only the former triggers fiduciary status; the latter does
not.” (internal citation omitted)). The central question
is “whether that person was acting as a fiduciary (that
is, was performing a fiduciary function) when taking
the action subject to complaint.” Pegram, 530 U.S. at
226.
Plaintiffs claim that defendants were acting as
fiduciaries when charging excessive premiums based
on the functions described in subparagraph (i)—
exercising discretion over plan management and
exercising authority over plan assets.5 These provisions
are distinct and therefore must be analyzed separately.
See IT Corp. v. Gen. Am. Life Ins. Co., 107 F.3d 1415,
1421 (9th Cir. 1997).
1. Discretion over Plan Management
Plaintiffs first argue that, in secretly charging
excessive premiums, defendants “exercise[d] . . .
discretionary authority or discretionary control
respecting [plan] management.” 29 U.S.C. §
1002(21)(A)(i). We disagree. Insurance companies do
not normally exercise discretion over plan management
when they negotiate at arm’s length to set rates or
5 Plaintiffs do not argue that defendants acted as fiduciaries

under 29 U.S.C. § 1002(21)(A)(iii), which provides that a person
is a fiduciary to the extent it “has any discretionary authority or
discretionary responsibility in the administration of [the] plan.”
Insurers generally act in a fiduciary capacity under this “plan
administration” provision when making a discretionary
determination about whether a claimant is entitled to benefits.
See King v. Blue Cross & Blue Shield of Ill., 871 F.3d 730, 745–
46 (9th Cir. 2017).

14a
collect premiums. That is because these negotiations
occur before the agreement is executed, at which point
the insurer has no relationship to the plan and thus no
discretion over its management.
We addressed a similar issue in Santomenno,
holding that a service provider—i.e., a company that
managed a self-funded ERISA plan as a third-party
administrator—“is not an ERISA fiduciary when
negotiating its compensation with a prospective
customer.” 883 F.3d at 837. The service provider in
that case performed several functions for retirement
plans, including the selection of various potential
investments, and its compensation was set as a fixed
percentage of the assets managed. Id. at 835–36. We
explained that “[a] service provider is plainly not
involved in plan management when negotiating its
prospective fees”; to the contrary, “at that stage
‘discretionary control over plan management lies with
the trustee, who decides whether to agree to the
service provider’s terms.’” Id. at 838 (internal
alterations omitted) (quoting Santomenno ex rel.
John Hancock Tr. v. John Hancock Life Ins. Co.
(U.S.A.), 768 F.3d 284, 293 (3d Cir. 2014) (“John
Hancock”)). In other words, “‘a service provider owes
no fiduciary duty with respect to the negotiation of its
fee compensation’ because ‘nothing prevent[s] the
trustees from rejecting the provider’s product and
selecting another service provider; the choice [i]s
theirs.’” Id. (internal alterations omitted) (quoting
John Hancock, 768 F.3d at 295). And after the
contract is executed, the “service provider cannot be
held liable for merely accepting previously bargainedfor fixed compensation” because “the plan
administrator act[s] as ‘a fiduciary only for purposes of
administering the plan, not for purposes of negotiating

15a
or collecting its compensation.’” Id. at 840 (citations
omitted).
The reasoning in Santomenno applies equally to
rate-setting by insurance companies. Premium rates,
like fixed compensation fees, are generally negotiated
in “an arm’s length bargain presumably governed by
competition in the marketplace,” Schulist v. Blue
Cross of Iowa, 717 F.2d 1127, 1132 (7th Cir. 1983),
which means that the insurance company is “free to
negotiate its [rates] with an eye to its profits,” Srein v.
Soft Drink Workers Union, Local 812, 93 F.3d 1088,
1096 (2d Cir. 1996). Because the potential purchaser of
the insurance policy remains free to “reject[ ] the
[insurer’s] product and select[ ] another,” the insurance
company “is plainly not involved in plan management
when negotiating” premium rates. Santomenno, 883
F.3d at 838 (quoting John Hancock, 768 F.3d at 295);
see also Cotton v. Mass. Mut. Life Ins. Co., 402 F.3d
1267, 1278–79 (11th Cir. 2005) (“Simply urging the
purchase of its products does not make an insurance
company an ERISA fiduciary with respect to those
products.” (citation omitted)).
That reasoning forecloses plaintiffs’ claim here.
Plaintiffs concede that the terms of the insurance
agreements in this case—including the premium
amounts—were negotiated at arm’s length. The
agreements were thus “‘presumably governed by
competition in the marketplace’ that specified the
premium rates.” Seaway Food Town, Inc. v. Med. Mut.
of Ohio, 347 F.3d 610, 618 (6th Cir. 2003) (quoting
Schulist, 717 F.2d at 1132). And the alleged
misconduct in this case—misrepresenting that the
monthly premiums reflected only the actual medical
premium—occurred when the policies were being
marketed. Indeed, plaintiffs allege that defendants

16a
made these misrepresentations in an effort to “induce
[p]laintiffs to buy coverage through Chamber
Choices.” Although plaintiffs may not have known
about the surcharges when deciding to subscribe to
Chamber Choices plans, the premium amounts were
fully disclosed, and plaintiffs always remained free to
walk away and select another insurance company.6
Defendants exercised no discretionary control over
the plan’s management at that point.
Although plaintiffs agree that insurance companies
do not ordinarily act as fiduciaries when negotiating
premium rates, they claim that this is not an ordinary
case. Rather, according to plaintiffs, defendants
possessed an ability to exercise discretion over the plan
by virtue of the modification provision in the Member
Guide:
[BCBSMT] may make administrative
changes or changes in dues, terms or Benefits
in the Group Plan by giving written notice to
the Group and/or purchasing pool member at
least 60 days in advance of the effective date
of the changes. Dues may not be increased
more than once during a 12-month period,
except as allowed by Montana law.
Plaintiffs argue that this provision granted
defendants an unfair “ability to unilaterally amend
6 Plaintiffs contend that, because the surcharges were concealed,

the premiums were not “definitively calculable and
nondiscretionary compensation . . . clearly set forth in a contract
with the fiduciary-employer.” Santomenno, 883 F.3d at 841. But
the premiums were fully disclosed and negotiated; the fact that
defendants did not disclose the composition of the premiums (or
how they were spending them) does not mean that defendants
exercised discretion in setting them.

17a
plan terms” upon “mere notice to the beneficiaries”
and therefore “subjected [them] to ERISA fiduciary
duties.”
Generally, a “company does not act in a
fiduciary capacity when deciding to amend . . . a
welfare benefits plan.” Curtiss-Wright Corp. v.
Schoonejongen, 514 U.S. 73, 78 (1995) (citation
omitted). Setting that aside, the mere existence of a
discretionary ability is insufficient to bestow fiduciary
status if that discretion was not “exercise[d].” 29 U.S.C.
§ 1002(21)(A)(i). Even assuming plaintiffs’ contention
that the modification provision granted defendants the
ability to unilaterally amend plan terms, plaintiffs do
not adequately allege that defendants ever exercised
that discretion, let alone “when taking the action
subject to complaint.” Pegram, 530 U.S. at 226. Indeed,
plaintiffs concede that defendants “initially imposed the
surcharges in an arms-length negotiation”—i.e., before
the modification provision was effective.7 Thus, even if
defendants may have become fiduciaries “at some point
after entering into the contracts, [they] plainly held no
7 Plaintiffs point to an allegation in the complaint that

defendants “‘imposed and increased’ the non-premium
surcharges ‘without providing the notice required by contract.’”
That conclusory allegation does not indicate that defendants
exercised discretion under the modification provision. Nor would
such an allegation be plausible, because plaintiffs’ theory is that
the modification provision granted defendants discretion to
increase premiums, not “non-premium surcharges.” And if, as
plaintiffs allege, they “had no way to know” that defendants were
embedding surcharges into the premium amounts, any alleged
increases would have had to occur before the premium amounts
were agreed to. Otherwise, a mid-year increase in surcharges
would have led to a mid-year increase in premiums, a fact that
is not alleged in the complaint and that would have been quite
obvious to plaintiffs had it occurred.

18a
such status prior to the execution of the contracts” when
the premium amounts were negotiated. Santomenno,
883 F.3d at 839 (internal alterations omitted) (quoting
F.H. Krear & Co. v. Nineteen Named Trs., 810 F.2d
1250, 1259 (2d Cir. 1987)).
We made this point in Santomenno. There, the
plaintiffs argued that the service provider “was a
fiduciary when selecting the investment options
because it retaine[d] the right to delete or substitute
the funds the employer ha[d] selected for the Plan.” Id.
at 839 n.5. We disagreed, observing that the plaintiffs
failed to “allege that [the service provider] ever
exercised its discretion.” Id. We also noted that the
service provider could “only alter investment options
upon six months’ notice,” and that the contract
“allow[ed] the employer opportunity to terminate the
contract if displeased with any change.” Id. Similarly,
we rejected the plaintiffs’ reliance on a contractual
provision that allowed the service provider “to change
[its fees] upon advance written notice,” explaining that
the “plaintiffs have not alleged that [the service
provider] ever changed its fees; indeed, if it did, the
employer is free under the [contract] to find another
provider.” Id. at 839 n.4; see id. at 841 n.8 (similar). The
bottom line is that a party is a fiduciary only to the
extent the party actually exercises the alleged
discretionary control or authority over plan
management.
Seeking to overcome this conclusion, plaintiffs
argue that defendants did exercise discretion after the
contracts were executed by virtue of their “decision to
continue charging inflated amounts, when [they] held
complete and unilateral authority to eliminate those
overcharges.” This argument—which condemns
defendants for failing to exercise discretion under the

19a
very provision that plaintiffs denounce as unfair—is
unpersuasive. In this context, a failure to exercise
discretion does not amount to an exercise of discretion
within the meaning of § 1002(21)(A)(i). See
Santomenno, 883 F.3d at 839 n.5. Once defendants
agreed to enter into a contract with plaintiffs,
defendants may have acquired fiduciary status with
respect to some plan functions, see, e.g., King v. Blue
Cross & Blue Shield of Ill., 871 F.3d 730, 745–46 (9th
Cir. 2017), but any fiduciary status defendants may
have acquired did not compel defendants to renegotiate
the premium rates they had just agreed to accept.
Rather, defendants were “merely accepting previously
bargained-for” premiums, and the bargaining itself did
not give rise to fiduciary status. Santomenno, 883 F.3d
at 840 (citation omitted).8 Thus, in allegedly charging
and collecting excessive premiums—which is “the
action subject to complaint,” Pegram, 530 U.S. at 226—
defendants were not exercising discretionary authority
over plan management.

8 Defendants’ failure to exercise discretion also sets this case

apart from the cases cited by plaintiffs in which an insurer
actually exercised discretion that had been granted in the
contract. See, e.g., Ed Miniat, Inc. v. Globe Life Ins. Grp., Inc.,
805 F.2d 732, 734, 737–38 (7th Cir. 1986) (insurer “unilaterally
and without justification announced . . . an abandonment of
existing policy holders, by reducing the rate of return paid on
account . . . and increasing premium rates to the maximum
allowed by the policy”); Chi. Bd. Options Exch., Inc. v. Conn. Gen.
Life Ins. Co., 713 F.2d 254, 255, 259–60 (7th Cir. 1983) (insurer
“exercis[ed]” its discretion to make a “unilateral amendment [to]
an annuity contract” from which the plaintiffs could not
withdraw). Here, the premiums charged were based not on
defendants’ discretion but instead on arm’s-length negotiations.

20a
2. Control over Plan Assets
Plaintiffs separately argue that defendants acted
as fiduciaries because they “exercise[d] . . . authority
or control respecting management or disposition of
[plan] assets.” 29 U.S.C. § 1002(21)(A)(i). Plaintiffs
contend that the premiums they paid to defendants
for insurance coverage were “plan assets” and that
defendants were subject to fiduciary obligations when
using them. But plaintiffs’ premise is flawed.
Premiums paid to an insurance company in return for
coverage under a fully insured insurance policy are
not “plan assets.”
ERISA defines “plan assets” to mean “plan assets
as defined by such regulations as the Secretary [of
Labor] may prescribe.” Id. § 1002(42). Although the
Secretary has not prescribed a comprehensive
regulation defining “plan assets,”9 several circuits
have followed the “consistent[ ]” position of “[t]he
Department of Labor . . . that ‘the assets of a plan
generally are to be identified on the basis of ordinary
notions of property rights under non-ERISA law.’”
Gordon v. CIGNA Corp., 890 F.3d 463, 472 (4th Cir.
2018) (citing U.S. Dep’t of Labor, Advisory Op. No. 9314A, 1993 WL 188473, at *4 (May 5, 1993)); accord
9 A Department of Labor regulation defines “assets of the plan”

to “include amounts . . . that a participant or beneficiary pays to
an employer, or amounts that a participant has withheld from
his wages by an employer, for contribution . . . to the plan, as of
the earliest date on which such contributions . . . can reasonably
be segregated from the employer’s general assets.” 29 C.F.R. §
2510.3-102(a)(1). As explained below, this regulation is
inapplicable here because the “amounts” plaintiffs seek to
recover are not amounts that were “pa[id] to an employer” by
plan participants but instead amounts paid by an employer to
an insurance company.

21a

Merrimon v. Unum Life Ins. Co. of Am., 758 F.3d 46,
56 (1st Cir. 2014); Hi-Lex Controls, Inc. v. Blue Cross
Blue Shield of Mich., 751 F.3d 740, 745 (6th Cir.
2014); Tussey v. ABB, Inc., 746 F.3d 327, 339 (8th Cir.
2014); Edmonson v. Lincoln Nat. Life Ins. Co., 725
F.3d 406, 427 (3d Cir. 2013); Faber v. Metro. Life Ins.
Co., 648 F.3d 98, 105–06 (2d Cir. 2011); In re Luna,
406 F.3d 1192, 1199 (10th Cir. 2005). We agree with
this weight of authority; absent applicable regulatory
guidance, plan “assets” under 29 U.S.C. §
1002(A)(21)(i) are to be identified based on ordinary
notions of property rights.10
Applying that principle here, we conclude that
neither plaintiffs nor their employees had a property
interest in the premium payments once they were paid
to defendants. Plaintiffs paid the premiums to
defendants in exchange for a contractual right to
receive a particular service—healthcare coverage
under a Chamber Choices plan. The premiums were
monthly fees that defendants collected as revenue for
providing that service. Upon paying the premiums,
plaintiffs had no “beneficial ownership interest” in
them. Hi-Lex Controls, 751 F.3d at 745 (quoting U.S.
Dep’t of Labor, Advisory Op. No. 92-24A, 1992 WL
337539, at *2 (Nov. 6, 1992)). Instead, defendants were
simply indebted to plaintiffs to provide the agreed-upon
coverage. Cf. Grupo Mexicano de Desarrollo, S.A. v.
10 Although we have adopted a “functional definition of what

constitutes an ‘asset of the plan’ for purposes of [29 U.S.C. §
1106],” Kayes v. Pac. Lumber Co., 51 F.3d 1449, 1466–67 (9th
Cir. 1995) (citing Acosta v. Pac. Enters., 950 F.2d 611, 620 (9th
Cir. 1991)), that definition assumes fiduciary status and is thus
not helpful in determining whether a party is in fact a fiduciary
under 29 U.S.C. § 1002(A)(21)(i).

22a

All. Bond Fund, Inc., 527 U.S. 308, 319–20 (1999) (“[A]
general creditor . . . ha[s] no cognizable interest, either
at law or in equity, in the property of his debtor, and
therefore [may] not interfere with the debtor’s use of
that property.”).
Plaintiffs try to equate the premiums paid to
defendants with “participant contributions” made into
a self-funded plan, which are generally deemed to be
plan assets. Acosta v. Pac. Enters., 950 F.2d 611, 620
& n.7 (9th Cir. 1991); see 29 C.F.R. § 2510.3-102(a)(1);
Advisory Op. No. 92-24A, 1992 WL 337539, at *2. But
plaintiffs elide the distinction between a self-funded
plan and a fully insured plan. Under a “self-funded”
plan, the insurance company “acts only as a thirdparty administrator; the employer is responsible for
paying claims [out of the employees’ contributions] and
bearing the financial risk.” N. Cypress Med. Ctr.
Operating Co., Ltd. v. Aetna Life Ins. Co., 898 F.3d
461, 468 (5th Cir. 2018); see Gobeille v. Liberty Mut.
Ins. Co., 136 S. Ct. 936, 941–42 (2016). Premiums paid
under a self-funded plan are therefore contributions
from employees earmarked and held in trust by the
employer for the employees’ later benefit. See Gordon,
890 F.3d at 472; Hi-Lex Controls, 751 F.3d at 747.
These employer-held contributions are therefore assets
of the plan. See 29 C.F.R. § 2510.3-102(a)(1) (defining
“assets of the plan” to include amounts “that a
participant or beneficiary pays to an employer . . . [or]
that a participant has withheld from his wages by an
employer” (emphasis added)); Advisory Op. No. 9224A, 1992 WL 337539, at *2 (describing “participant
contributions” in the context of “plans whose benefits
are paid as needed solely from the general assets of the
employer maintaining the plan”).

23a
This case, however, does not involve a self-funded
plan. Instead, as plaintiffs allege, all of the plans sold
by defendants were “fully-insured health insurance
policies.” Under a “fully insured” plan, the insurance
company “acts as a direct insurer; it guarantees a fixed
monthly premium for 12 months and bears the
financial risk of paying claims.” N. Cypress Med. Ctr.,
898 F.3d at 468. Premiums paid under a fully insured
plan are not held in trust; rather, they are “fixed fee[s]”
paid in exchange for the insurance company
“assum[ing] the financial risk of providing the benefits
promised.” Pegram, 530 U.S. at 218–19. And as
explained above, once defendants collected those fees,
neither plaintiffs nor their employees maintained any
sort of property interest in them. Accordingly,
defendants did not exercise control over plan assets
when charging or spending the allegedly excessive
premiums.11
Because defendants were not exercising a
fiduciary function when taking “the action subject to
complaint,” Pegram, 530 U.S. at 226, we affirm the
district court’s dismissal of plaintiffs’ breach of
fiduciary duty claim under 29 U.S.C. § 1132(a)(2).
B. Prohibited Transaction Claim
Next,
we
consider
plaintiffs’
prohibited
transaction claim, for which they purport to seek
“appropriate equitable relief” under 29 U.S.C. §
1132(a)(3). We conclude that the relief plaintiffs seek
is not equitable and accordingly affirm the district
11 In light of our holding, we express no opinion on the district

court’s conclusion that the premium payments were not plan
assets pursuant to ERISA’s “guaranteed benefit policy”
provision, 29 U.S.C. § 1101(b)(2).

24a
court’s dismissal of plaintiffs’ prohibited transaction
claim.
Under ERISA’s prohibited transaction provisions,
“[a] fiduciary with respect to a plan shall not cause the
plan to engage in a transaction” with “a party in
interest” for the “furnishing of . . . services” if “more
than reasonable compensation is paid therefor.” 29
U.S.C. §§ 1106(a)(1)(C), 1108(b)(2).12 ERISA provides
a cause of action for remedying prohibited
transactions:
A civil action may be brought . . . by a
participant, beneficiary, or fiduciary (A) to
enjoin any act or practice which violates any
provision of [ERISA Title I] or the terms of
the plan, or (B) to obtain other appropriate
equitable relief (i) to redress such violations
or (ii) to enforce any provisions of [ERISA
Title I] or the terms of the plan.
Id. § 1132(a)(3). Because § 1132(a)(3) “makes no
mention at all of which parties may be proper
defendants,” a party in interest—including a nonfiduciary third party—may be sued under this
provision for its participation in a prohibited
12 The text of these sections creates the prohibited transaction

as follows: “Except as provided in section 1108 . . . [a] fiduciary
with respect to a plan shall not cause the plan to engage in a
transaction, if he knows or should know that such transaction
constitutes a direct or indirect . . . furnishing of . . . services . . .
between the plan and a party in interest.” 29 U.S.C. §
1106(a)(1)(C). “The prohibitions provided in section 1106 of this
title shall not apply to . . . [c]ontracting or making reasonable
arrangements with a party in interest for . . . services

necessary for the establishment or operation of the plan, if
no more than reasonable compensation is paid therefor.” Id. §
1108(b)(2).

25a
transaction. Harris Tr. & Sav. Bank v. Salomon Smith
Barney, Inc., 530 U.S. 238, 246, 249–51 (2000); see
Landwehr v. DuPree, 72 F.3d 726, 734 (9th Cir. 1995).
And even though the plan fiduciary is the one who
“cause[d] the plan to engage in [the prohibited]
transaction,” 29 U.S.C. § 1106(a)(1), the “culpable
fiduciary” may still bring suit against “the arguably
less culpable” party in interest because “the purpose
of the action is to recover money or other property for
the [plan beneficiaries],” Harris Tr., 530 U.S. at 252
(quoting Restatement (Second) of Trusts § 294 cmt. c,
at 70 (1957)).13 Thus, a plan fiduciary may (1) seek an
injunction or “other appropriate equitable relief” (2)
against a “party in interest” (3) for participating in a
transaction for services for which “more than
reasonable compensation is paid.”
The parties and the district court all agree that the
second and third components are satisfied in this case.
Each defendant is a “party in interest”—which ERISA
defines as “a person providing services to [a] plan,” 29
U.S.C. § 1002(14)(B)—because they provide
underwriting and claim-adjudication services to the
plans. And the alleged conduct in this case—imposing
13 In Harris Trust, the fiduciaries of a pension plan sued

Salomon Smith Barney (“Salomon”), a firm that provided brokerdealer and trading services to the plan. 530 U.S. at 242. While
the plan was receiving these services, the plan also purchased
worthless investments from Salomon at the direction of an
investment manager that exercised “discretion over a portion of
the plan’s assets” and was therefore also a plan fiduciary. Id. at
242–43. The remaining fiduciaries sued Salomon under §
1132(a)(3) as a non-fiduciary party in interest, contending that
the investment manager, acting as a fiduciary, caused the plan
to engage in a prohibited transaction between the plan and a
party in interest for the sale of property in exchange for plan
assets. Id. at 243 (citing 29 U.S.C. § 1106(a)(1)(A), (D)).

26a
unreasonable charges for kickbacks and unrequested
benefits—is arguably a prohibited transaction for
“services” between plan fiduciaries (plaintiffs) and
parties in interest (defendants) for which “more than
reasonable compensation is paid.” Id. §§ 1106(a)(1)(C),
1108(b)(2). Because an injunction is not at issue here,
the only dispute is whether plaintiffs are seeking
“appropriate equitable relief” under § 1132(a)(3).
In a series of decisions, the Supreme Court has
explained that the phrase “appropriate equitable relief”
in § 1132(a)(3) “is limited to those categories of relief
that were typically available in equity during the days
of the divided bench (meaning, the period before 1938
when courts of law and equity were separate).”
Montanile v. Bd. of Trs. of Nat’l Elevator Indus. Health
Benefit Plan, 136 S. Ct. 651, 657 (2016) (internal
quotation marks omitted); see US Airways, Inc. v.
McCutchen, 569 U.S. 88, 94–95 (2013); Sereboff v. Mid
Atl. Med. Servs., Inc., 547 U.S. 356, 361–62 (2006);
Great-West Life & Annuity Ins. Co. v. Knudson, 534
U.S. 204, 210 (2002); Mertens v. Hewitt Assocs., 508
U.S. 248, 256 (1993). As a result, a plaintiff may not use
§ 1132(a)(3) to seek any “form of legal relief,” such as
“money damages.” Great-West, 534 U.S. at 210
(internal alteration omitted) (quoting Mertens, 508 U.S.
at 255). To qualify as “equitable relief,” both “(1) the
basis for the plaintiff’s claim and (2) the nature of the
underlying remedies sought” must be equitable rather
than legal. Montanile, 136 S. Ct. at 657 (internal
alterations omitted) (quoting Sereboff, 547 U.S. at 363).
Even if we assume that the basis for plaintiffs’ claim
in this case is equitable,14 the nature of the underlying
14 Although we are skeptical that the basis for plaintiffs’ claim

is equitable, defendants did not dispute that issue in the

27a
remedies sought by plaintiffs in their complaint is not
equitable. Plaintiffs seek a judgment to obtain money
from defendants, and “[a]lmost invariably suits seeking
. . . to compel the defendant to pay a sum of money to
the plaintiff are suits for ‘money damages’”—the
“classic form of legal relief.” Great-West, 534 U.S. at
210 (citation and internal alteration omitted).
Although plaintiffs attempt to characterize the relief
they seek as equitable by labeling it “restitution” and
“disgorgement,” we must “look to the ‘substance of the
remedy sought rather than the label placed on that
remedy.’” Mathews v. Chevron Corp., 362 F.3d 1172,
1185 (9th Cir. 2004) (citation and internal alteration
omitted). We conclude that, notwithstanding the
labels, plaintiffs’ requested relief is not equitable in
nature.
1. Restitution
The restitution plaintiffs seek is not equitable. The
Supreme Court has drawn a “fine distinction between
restitution at law and restitution in equity.” GreatWest, 534 U.S. at 214. A plaintiff seeks “restitution at
law” when the plaintiff cannot “assert title or right to
possession of particular property” but instead seeks to
“impose personal liability on the defendant” as a
means of “recovering money to pay for some benefit the
defendant . . . received from [the plaintiff].” Id. at 213–
14 (quoting 1 Dan B. Dobbs, Law of Remedies § 4.2(1),
at 571 (2d ed. 1993) (“Dobbs”)). By contrast, a plaintiff
district court and raise it for the first time on appeal. We thus
do not address that question and instead apply our “‘general
rule’ against entertaining arguments on appeal that were not
presented or developed before the district court.” Richards v.
Ernst & Young, LLP, 744 F.3d 1072, 1075 (9th Cir. 2013)
(citation omitted).

28a
seeks “restitution in equity, ordinarily in the form of a
constructive trust or an equitable lien, where money or
property identified as belonging in good conscience to
the plaintiff [can] clearly be traced to particular funds
or property in the defendant’s possession.” Id. at 213
(citing 1 Dobbs § 4.3(1), at 587–88); see 2 Dobbs § 6.1(3),
at 12–13.
The Court has illustrated this distinction in several
cases involving ERISA plans claiming entitlement to a
settlement fund obtained by plan beneficiaries. In
Great-West, the Court concluded that the plan was
seeking legal restitution because the specifically
identified fund was not in the defendants’ possession.
534 U.S. at 214. By contrast, in Sereboff, the Court
concluded that the plan was seeking equitable
restitution because the plan “sought ‘specifically
identifiable’ funds that were ‘within the possession and
control’” of the defendants—not recovery from the
defendants’ “assets generally.” 547 U.S. at 362–63
(citation omitted). And in Montanile, the Court faced
the problem of a fund that, although specifically
identified at one time, had been dissipated by the
defendant on nontraceable items, leaving the plan to
seek recovery “out of the defendant’s general assets.”
136 S. Ct. at 658. Observing the rule that equitable
restitution must seek to recover “specifically identified
funds that remain in the defendant’s possession or . . .
traceable items that the defendant purchased with the
funds (e.g., identifiable property like a car),” the Court
held that seeking recovery out of “the defendant’s
general assets” due to dissipation of the funds “on
nontraceable items (like food or travel)” amounts to “a
legal remedy, not an equitable one.” Id.
In this case, the district court concluded that the
nature of the remedy sought by plaintiffs is not

29a
equitable, reasoning that, under Montanile, “a party
cannot recover in equity unless the funds have been
maintained in a segregated account.” Montanile,
however, concerned dissipation and tracing, not
segregation. The Court noted this distinction in dicta,
observing that at least in some instances, if a defendant
“commingl[es] a specifically identified fund . . . with a
different fund,” the “commingling allow[s] the plaintiff
to recover the amount of the lien from the entire pot of
money.” Montanile, 136 S. Ct. at 661. And as plaintiffs
point out, we have, in another context, permitted
recovery out of commingled funds under the “lowest
intermediate balance” doctrine, which “evolved from
equitable principles of trusts”:
“Where a wrongdoer mingles another’s
money with his own, from which
commingled account withdrawals are from
time to time made, there is a presumption of
law that the sums first withdrawn were
moneys of the tortfeasor.” . . . If the amount
on deposit is depleted below the amount of
the trust, however, the amount withdrawn
is treated as lost, and subsequent deposits
do not replenish the trust. Thus, the
beneficiary is entitled to the lowest
intermediate balance between the date of
the commingling and the date of payment.
In re R & T Roofing Structures & Commercial
Framing, Inc., 887 F.2d 981, 987 (9th Cir. 1989)
(internal alterations omitted) (quoting Republic
Supply Co. v. Richfield Oil Co., 79 F.2d 375, 378 (9th
Cir. 1935)); see also Schuyler v. Littlefield, 232 U.S.
707, 710 (1914) (“[W]here one has deposited trust
funds in his individual bank account, and the
mingled fund is at any time wholly depleted, the trust

30a
fund is thereby dissipated, and cannot be treated as
reappearing in sums subsequently deposited to the
credit of the same account.”). Thus, plaintiffs argue,
when a specific fund is commingled with other funds
in a general account, restitution is available out of
the general account as long as the general account
balance does not dip below the amount of the
wrongfully held money.
We need not decide whether this proposition is
correct because, even assuming it is, “the facts and
allegations supporting that proposition [do not] appear
in [plaintiffs’] complaint.” Amgen, 136 S. Ct. at 760.
First, plaintiffs have not identified a “specific fund” to
which they are entitled. As Montanile explains,
“[e]quitable remedies ‘are, as a general rule, directed
against some specific thing,’” not “a sum of money
generally.” 136 S. Ct. at 658 (citation omitted).
Plaintiffs, however, seek to recover not a specific thing
but instead some unidentified portion of the many
premium payments that exceeded “reasonable
compensation.” The premium surcharges plaintiffs
seek to recover “never existed as a distinct object or
fund”; rather, they reflect “a specific amount of money
encompassed within a particular fund”—the total
premiums paid to defendants. Bilyeu v. Morgan
Stanley Long Term Disability Plan, 683 F.3d 1083,
1093 (9th Cir. 2012). And even if the amount of the
overcharges is measurable or otherwise identifiable,
“[i]t is the fund, not its size, that must be identifiable.”
Cent. States, Se. & Sw. Areas Health & Welfare Fund
v. First Agency, Inc., 756 F.3d 954, 960 (6th Cir. 2014);
see Bilyeu, 683 F.3d at 1093 (distinguishing between a
specific “amount of money” and a specific “fund”).
Indeed, a judgment in plaintiffs’ favor would have no
connection to any particular fund whatsoever.
Defendants would simply be required to pay a certain

31a
amount of money, and they could “satisfy that
obligation by dipping into any pot” they like. First
Agency, 756 F.3d at 960. That is restitution at law, not
equity.
Second, the complaint never mentions the
existence of a general account in which the ill-gotten
funds (i.e., the premium surcharges) were
commingled, such that the product of those funds
would be traceable. Again, Montanile is clear: “[W]here
a person wrongfully disposed of the property of another
but the property cannot be traced into any product, the
other cannot enforce a constructive trust or lien upon
any part of the wrongdoer’s property.” 136 S. Ct. at 659
(emphasis and internal alterations omitted) (quoting
Restatement of Restitution § 215(1), at 866 (1936)); see
also George G. Bogert et al., The Law of Trusts and
Trustees § 921 (2d rev. ed. 1995) (“Bogert”)
(explaining that restitution of “trust property or its
product” is generally unavailable “where the proof of
the beneficiary-claimant merely shows the receipt of
trust property by the defendant and makes no case as
to its subsequent history or its existence among the
present assets of the defendant”).
Nor do plaintiffs allege that defendants’ account
balance remained above the surcharge amounts for
purposes of their “lowest intermediate balance”
theory. Indeed, a “consequence of the lowest balance
rule is that, unless there is evidence to show the
amount of the low balance, the plaintiff may recover
nothing at all, on the view that without such evidence,
the plaintiff’s funds have not been identified in the
account.” 2 Dobbs § 6.1(4), at 22. Here, the gravamen
of plaintiffs’ complaint is that defendants spent the
surcharges on kickbacks and unwanted insurance
products. That leaves plaintiffs to simply declare in

32a
their briefs that it is “almost inconceivable” that
defendants did not place the surcharges into a general
account before spending them, and that the general
account still exists today such that the surcharges
would be traceable. But as the complaint itself
explains, BCBSMT has substantially reorganized,
changed its name to CFM, sold its health insurance
business, and at some point has donated or will donate
its assets to public charity. Thus, even if defendants
placed surcharges collected between 2006 and 2014
into a general account, we certainly find it at least
“conceivable” that the account no longer exists.
Because “our review is limited to the contents of the
complaint,” Allen, 911 F.2d at 372, we decline to
entertain plaintiffs’ unpleaded theory on appeal.
2. Disgorgement
Plaintiffs also purport to seek disgorgement,
which they define as a money judgment equivalent in
value to ill-gotten assets that were dissipated on nontraceable
items.
This
characterization
of
disgorgement—which runs headlong into Montanile’s
refusal to permit recovery of assets that have been
dissipated “on nontraceable items,” 136 S. Ct. at
658—is unavailing.
“Disgorgement” is simply a form of “[r]estitution
measured by the defendant’s wrongful gain” rather
than by the plaintiff’s loss, and is often described as “an
‘accounting for profits.’” Restatement (Third) of
Restitution and Unjust Enrichment § 51 cmt. a, at 204
(2011); see Edmonson, 725 F.3d at 419
(“[D]isgorgement and accounting for profits are
essentially the same remedy.”); 1 Dobbs § 4.3(5), at 610
(“[A]ccounting for profits . . . forces the [defendant] to
disgorge gains received from improper use of the
plaintiff’s property or entitlements.”). And as the

33a
Supreme Court explained in Great-West, “an
accounting for profits” is an additional remedy—
available when the plaintiff “is entitled to a
constructive trust on particular property held by the
defendant”—that allows the plaintiff to “recover profits
produced by the defendant’s use of that property, even
if [the plaintiff] cannot identify a particular res
containing the profits sought to be recovered.” 534 U.S.
at 214 n.2 (citing 1 Dobbs §§ 4.3(1), 4.3(5), at 588, 608).
That is also how the Court described “disgorgement” in
Harris Trust—a remedy available to recover the
“proceeds” from disposing of particular property as well
as “profits derived” from the illicit use of that property.
530 U.S. at 250. Given the absence of any particular
property in this case, plaintiffs’ request for
disgorgement is not equitable in nature.15
Plaintiffs try to erase this particularity
requirement by citing several trust law treatises that
explain that trust beneficiaries could sue a third-party
transferee in a court of equity to obtain a “money
judgment” when the ill-gotten assets cannot be traced.
15 Under traditional rules of equity, an accounting for profits

may be available in the absence of a constructive trust over
specifically identifiable property if the defendant owed a
fiduciary duty to the plaintiff and breached that duty. See Parke
v. First Reliance Standard Life Ins. Co., 368 F.3d 999, 1008–09
(8th Cir. 2004); cf. CIGNA Corp. v. Amara, 563 U.S. 421, 441–42
(2011) (describing a “surcharge,” which is an equitable remedy
“in the form of monetary ‘compensation’ for a loss resulting from
a trustee’s breach of duty, or to prevent the trustee’s unjust
enrichment” (citation omitted)). But fiduciary status is “[t]he
important ingredient.” 1 Dobbs § 4.3(5), at 611 n.16; see CIGNA,
563 U.S. at 442 (“[T]he fact that the defendant . . . is analogous
to a trustee makes a critical difference.”). And for purposes of
plaintiffs’ prohibited transaction claim, defendants are not
fiduciaries but instead non-fiduciary third parties.

34a
See, e.g., Bogert § 868; 4 Austin Wakeman Scott &
William Franklin Fratcher, The Law of Trusts §§
291.1, 291.2, at 78–79 (4th ed. 1989); Restatement
(Second) of Trusts § 291 cmt. e, at 59. Indeed, plaintiffs
proclaim, courts of equity had “exclusive jurisdiction”
in this context, and an “exclusively equitable remedy
is, by definition, a typically equitable remedy.” But the
Supreme Court rejected this reasoning in Mertens,
explaining that although “courts of equity had
exclusive jurisdiction over virtually all actions by
beneficiaries for breach of trust”—including actions
for monetary relief “against third persons who
knowingly participated in the trustee’s breach”—
many of those actions sought what were in effect
“‘legal remedies’ granted by an equity court.” 508 U.S.
at 256. The phrase “equitable relief” in ERISA does not
mean “whatever relief a common-law court of equity
could provide.” Id. at 257. Rather, it means relief that
was “typically available in equity (such as injunction,
mandamus, and restitution, but not compensatory
damages).” Id. at 256. And as explained above,
equitable restitution (including its disgorgement
variant) generally requires specifically identifiable
property or its traceable proceeds.
Plaintiffs also point to Harris Trust, but nothing in
Harris Trust alters that conclusion. As the Court
explained in that case, beneficiaries can recover in
equity from a third-party transferee only because
“equity impresse[d] a constructive trust on the
property” upon its transfer. Harris Tr., 530 U.S. at 250
(quoting Moore v. Crawford, 130 U.S. 122, 128 (1889)).
And a “constructive trust . . . may be imposed only
where the plaintiff’s funds are themselves located and
identified or where they are traced into other funds or
property.” 2 Dobbs § 6.1(3), at 12–13 (footnotes
omitted). Indeed, “the nature of the relief” that the

35a
Court “described in Harris Trust [was] a claim to
specific property (or its proceeds) held by the
defendant.” Great-West, 534 U.S. at 215 (emphasis
added). Because plaintiffs have not identified any
specific property from which proceeds or profits
derived, they cannot recover the derivative remedy of
disgorgement.
In sum, plaintiffs are not seeking “appropriate
equitable relief” under 29 U.S.C. § 1132(a)(3). We
thus affirm the district court’s dismissal of plaintiffs’
prohibited transaction claim.
IV. STATE-LAW CLAIMS
We now turn to plaintiffs’ claims under state law
for fraudulent inducement, constructive fraud,
negligent misrepresentation, unjust enrichment, and
unfair trade practices under the Montana Consumer
Protection Act. Each of these claims is based on
defendants’ alleged misrepresentations to plaintiffs
that the premiums charged reflected the actual
medical premium amount. See generally Morrow v.
Bank of Am., N.A., 324 P.3d 1167, 1180–85 (Mont.
2014) (describing the elements of fraud, constructive
fraud, negligent misrepresentation, and unfair trade
practices). The district court dismissed these claims
after concluding that they are preempted by ERISA
and that plaintiffs’ fraud allegations are not pled
with sufficient particularity for purposes of Federal
Rule of Civil Procedure 9(b). Plaintiffs challenge both
conclusions.
A. Preemption
“[T]wo strands of ERISA preemption” are relevant
here: (1) “express” preemption under 29 U.S.C. §
1144(a); and (2) “conflict” preemption based on 29
U.S.C. § 1132(a). Paulsen v. CNF Inc., 559 F.3d

36a
1061, 1081 (9th Cir. 2009) (citation omitted).
Addressing each strand, we conclude that ERISA
does not preempt plaintiffs’ state-law claims.
1. Express Preemption
ERISA expressly preempts “any and all State laws
insofar as they may now or hereafter relate to any
employee benefit plan.” 29 U.S.C. § 1144(a). The text of
this provision—and in particular, the phrase “relate
to”—is broad. So broad, in fact, that the Supreme Court
has rejected an “‘uncritical literalism’ in applying” it
given its potentially never-ending reach. Gobeille, 136
S. Ct. at 943 (quoting N.Y. State Conference of Blue
Cross & Blue Shield Plans v. Travelers Ins. Co., 514
U.S. 645, 656 (1995)). To provide some “workable
standards” for determining the scope of § 1144(a), the
Court has identified “two categories” of state-law
claims that “relate to” an ERISA plan—claims that
have a “reference to” an ERISA plan, and claims that
have “an impermissible ‘connection with’” an ERISA
plan. Id. (citations omitted); see Or. Teamster Emp’rs
Tr. v. Hillsboro Garbage Disposal, Inc., 800 F.3d 1151,
1155 (9th Cir. 2015) (“A [state] law claim ‘relates to’ an
ERISA plan ‘if it has a connection with or reference to
such a plan.’” (citation omitted)). These two categories
operate separately. See Cal. Div. of Labor Standards
Enf’t v. Dillingham Constr., N.A., Inc., 519 U.S. 316,
324–25 (1997).
We first address the “reference to” category. A
state-law claim has a “‘reference to’ an ERISA plan” if
it “is premised on the existence of an ERISA plan” or
if “the existence of the plan is essential to the claim’s
survival.” Hillsboro Garbage, 800 F.3d at 1155–56
(quoting Providence Health Plan v. McDowell, 385
F.3d 1168, 1172 (9th Cir. 2004)). In this case,
plaintiffs’ state-law claims are not premised or

37a
dependent on the existence of an ERISA plan. Indeed,
as explained above, the alleged misrepresentations
occurred prior to any plan’s existence. We thus have
little difficulty concluding that plaintiffs’ state-law
claims do not have an impermissible “reference to” an
ERISA plan.
We reach the same conclusion with respect to the
“connection with” prong. A claim has “an
impermissible ‘connection with’” an ERISA plan if it
“‘governs a central matter of plan administration’ or
‘interferes
with
nationally
uniform
plan
administration,’” Gobeille, 136 S. Ct. at 943 (internal
alteration omitted) (quoting Egelhoff v. Egelhoff, 532
U.S. 141, 148 (2001)), or if it “bears on an ERISAregulated relationship,” Hillsboro Garbage, 800 F.3d
at 1155 (quoting Paulsen, 559 F.3d at 1082). We look
to “the objectives of the ERISA statute as a guide,”
bearing in mind a “‘starting presumption that
Congress d[id] not intend to supplant’ . . . state laws
regulating a subject of traditional state power” unless
that power amounts to “a direct regulation of a
fundamental ERISA function.” Gobeille, 136 S. Ct. at
943, 946 (quoting Travelers, 514 U.S. at 654).
Preventing “sellers of goods and services, including
benefit plans, from misrepresenting the contents of
their wares” is certainly an area of traditional state
regulation that “is ‘quite remote from the areas with
which ERISA is expressly concerned—reporting,
disclosure, fiduciary responsibility, and the like.’”
Wilson v. Zoellner, 114 F.3d 713, 720 (8th Cir. 1997)
(quoting Dillingham, 519 U.S. at 330); see Nat’l Sec.
Sys., Inc. v. Iola, 700 F.3d 65, 84–85 (3d Cir. 2012)
(collecting cases holding that ERISA does not
expressly preempt state-law claims against an insurer
“who makes fraudulent or misleading statements to

38a
induce participation in an ERISA plan”). Moreover,
plaintiffs’ state-law claims do not “bear[ ] on an ERISAregulated relationship.” Rutledge v. Seyfarth, Shaw,
Fairweather & Geraldson, 201 F.3d 1212, 1219 (9th
Cir. 2000), amended, 208 F.3d 1170 (9th Cir. 2000),
abrogated in part on other grounds by Davila, 542 U.S.
200. Although plaintiffs’ prohibited transaction claim
involves an ERISA-regulated relationship (the
relationship between a fiduciary and a party in
interest), that relationship is unrelated to plaintiffs’
state-law
claims,
which
focus
on
the
misrepresentations made by defendants while they
were operating “just like any other commercial entity.”
Paulsen, 559 F.3d at 1082 (citation omitted).
Defendants argue that our decision in Rutledge
compels a contrary conclusion. In Rutledge, we
concluded that ERISA preempted a plan participant’s
state-law claims against a law firm that allegedly
overcharged the plan for legal services. 201 F.3d at
1222. We explained that “a core factor leading to the
conclusion that a state law claim is preempted is that
the claim bears on an ERISA-regulated relationship,”
id. at 1219, and one such “ERISA-governed
relationship” is the relationship between plan
participants and parties in interest “in the respect
[t]here at issue—excessive fees,” id. at 1221–22 &
n.12. We thus held that “state-law claims against a
non-fiduciary for prohibited transactions ‘relate to the
administration of a plan covered by ERISA,’” and that
the allegation of excessive fees in that case was a
“prohibited transaction governed by ERISA.” Id. at
1221–22 (quoting Concha v. London, 62 F.3d 1493,
1504 (9th Cir. 1995)).
This case differs from Rutledge, however, because
plaintiffs’ state-law claims are premised on defendants’

39a
misrepresentations in negotiations, not prohibited
transactions. Indeed, plaintiffs’ state-law claims could
succeed even if the premiums that defendants charged
constituted “reasonable compensation” under ERISA,
29 U.S.C. § 1108(b)(2), because the claims allege that
defendants misrepresented the composition of the
premiums in a way that induced plaintiffs to subscribe
to Chamber Choices plans. The actual amount of the
premiums—and whether that amount was “reasonable
compensation” under ERISA—is irrelevant to
plaintiffs’
state-law
claims.
And
the
misrepresentations occurred, at least initially, before
plaintiffs ever agreed to subscribe to a plan. The
claims thus do not “bear[ ] on an ERISA-regulated
relationship,” Rutledge, 201 F.3d at 1219, because no
such
relationship
existed
when
the
misrepresentations were made. Plaintiffs’ state-law
claims are accordingly not expressly preempted by
ERISA.
2. Conflict Preemption
In addition to its express preemption provision,
ERISA articulates “a comprehensive civil enforcement
scheme” in 29 U.S.C. § 1132(a) that is designed “to
provide a uniform regulatory regime over employee
benefit plans.” Davila, 542 U.S. at 208 (quoting Pilot
Life Ins. Co. v. Dedeaux, 481 U.S. 41, 54 (1987)).16 As a
result, “any state-law cause of action that duplicates,
supplements, or supplants the ERISA civil enforcement
16 The “possible claims” under 29 U.S.C. § 1132(a) are “(1) an

action to recover benefits due under the plan; (2) an action for
breach of fiduciary duties; and (3) a suit to enjoin violations of
ERISA or the [p]lan, or to obtain other equitable relief” to redress
ERISA or plan violations. Bast v. Prudential Ins. Co. of Am., 150
F.3d 1003, 1008 (9th Cir. 1998) (internal citations omitted).

40a
remedy conflicts with the clear congressional intent to
make the ERISA remedy exclusive” and is therefore
barred by conflict preemption. Id. at 209. Conflict
preemption can bar a state-law claim “even if the
elements of the state cause of action [do] not precisely
duplicate the elements of an ERISA claim,” id. at 216,
but a state-law claim is not preempted if it reflects an
“attempt to remedy [a] violation of a legal duty
independent of ERISA,” id. at 214. State-law claims
“are based on ‘other independent legal duties’” when
they “are in no way based on an obligation under an
ERISA plan” and “would exist whether or not an ERISA
plan existed.” Marin Gen. Hosp. v. Modesto & Empire
Traction Co., 581 F.3d 941, 950 (9th Cir. 2009)
(internal alteration omitted) (quoting Davila, 542
U.S. at 210).
In this case, the duties implicated in plaintiffs’
state-law claims do not derive from ERISA; indeed,
ERISA does not purport to govern negotiations
between insurance companies and employers. Each of
the state-law claims arises from defendants’
misrepresentations and the effect they had on
plaintiffs’ decisions to subscribe to Chamber Choices
plans. The legal duties at issue in these state-law
claims are independent of the duties imposed by
ERISA and would exist regardless of whether an
ERISA plan existed. See Cotton, 402 F.3d at 1290
(finding no conflict preemption where the plaintiffs
sought “damages based on fraud in the sale of
insurance policies”). Put in the terms used by the
district court, plaintiffs’ state-law claims are not
“alternative enforcement mechanisms” to ERISA
claims because ERISA does not have an enforcement
mechanism that regulates misrepresentations by
insurance companies. Plaintiffs’ state-law claims are

41a
thus not barred by either express or conflict
preemption.
B. Rule 9(b) Particularity
Finally, we turn to the district court’s conclusion
that plaintiffs “have not met the heightened pleading
standard required under Federal Rule of Civil
Procedure 9(b) as to their allegations of fraud.” Rule
9(b)’s particularity requirement applies to plaintiffs’
claims of fraudulent inducement and constructive
fraud.17
Under Rule 9(b), a party “alleging fraud or mistake
. . . must state with particularity the circumstances
constituting fraud or mistake.” Fed. R. Civ. P. 9(b). To
satisfy Rule 9(b)’s particularity requirement, the
complaint must include “an account of the ‘time, place,
and specific content of the false representations as
well as the identities of the parties to the
misrepresentations.’” Swartz v. KPMG LLP, 476 F.3d
17 We disagree with plaintiffs’ assertion that Rule 9(b) does not

apply to their constructive fraud claim because Montana’s

version of the rule would not apply in state court. Rule
9(b)’s particularity requirement “is a federally imposed rule”
that applies “irrespective of whether the substantive law at issue
is state or federal.” Kearns v. Ford Motor Co., 567 F.3d 1120,
1125 (9th Cir. 2009) (quoting Vess v. Ciba-Geigy Corp. USA, 317
F.3d 1097, 1102–03 (9th Cir. 2003)); see id. (rejecting the
argument “that Rule 9(b) does not apply to California’s consumer
protection statutes because California courts have not applied
Rule 9(b) [to those statutes]”). State law is relevant only “to
determine whether the elements of fraud have been pled
sufficiently to state a cause of action.” Id. (quoting Vess, 317 F.3d
at 1103). And because plaintiffs rely on a “unified course of
fraudulent conduct” as the basis of the constructive fraud claim,
the claim is at a minimum “grounded in fraud” and therefore
“must satisfy the particularity requirement of Rule 9(b).” Vess,
317 F.3d at 1103–04.

42a
756, 764 (9th Cir. 2007) (per curiam) (quoting
Edwards v. Marin Park, Inc., 356 F.3d 1058, 1066 (9th
Cir. 2004)). In other words, the pleading “must
‘identify the who, what, when, where, and how of the
misconduct charged, as well as what is false or
misleading about the purportedly fraudulent
statement, and why it is false.’” Salameh v. Tarsadia
Hotel, 726 F.3d 1124, 1133 (9th Cir. 2013) (quoting
United States ex rel. Cafasso v. Gen. Dynamics C4
Sys., Inc., 637 F.3d 1047, 1055 (9th Cir. 2011)).
The complaint in this case alleges that defendants
misrepresented the basis of the premiums they
charged. But the complaint lacks sufficient detail with
respect to the “who,” “when,” “where,” or “how.”
Plaintiffs vaguely allege that defendants made these
misrepresentations “[i]n the course of marketing” the
plans to plaintiffs over a period of eight years—from
2006 to 2014. Plaintiffs do not allege the details of
these misrepresentations, such as when defendants
made them, where or how defendants made them, to
whom they were made, or the specific contents of the
misrepresentations.18 See Concha, 62 F.3d at 1503
(“Rule 9(b) . . . requires that plaintiffs specifically plead
those facts surrounding alleged acts of fraud to which
they can reasonably be expected to have access.”). We
therefore agree with the district court that plaintiffs’
allegations do not state with particularity the
circumstances of the alleged fraud.

18 Defendants also argue that the complaint impermissibly

lumps together HCSC and CFM as “BCBSMT.” This argument
lacks merit. The complaint specifically explains that “BCBSMT”
refers to CFM for conduct occurring before July 2013, and to
HCSC for conduct occurring after July 2013.

43a
Nevertheless, because we reverse the district
court’s conclusion that plaintiffs’ state-law claims are
preempted, we reverse the district court’s dismissal
with prejudice of the state-law claims so that plaintiffs
may amend their complaint to state the fraud
allegations with greater particularity. See United
States ex rel. Swoben v. United Healthcare Ins. Co., 848
F.3d 1161, 1167 (9th Cir. 2016). We note, however, that
because we affirm the dismissal of plaintiffs’ ERISA
claims, the district court is also free on remand to
decline to exercise supplemental jurisdiction over the
state-law claims and allow plaintiffs to bring them in
state court. See Sanford v. MemberWorks, Inc., 625
F.3d 550, 561 (9th Cir. 2010) (discussing
supplemental jurisdiction under 28 U.S.C. §
1367(c)(3)).
V. CONCLUSION
“[R]educed to the size of a pea, this case is really
about claims of fraud and misrepresentation in the
sale of some [health] insurance policies.” Cotton, 402
F.3d at 1279. ERISA does not regulate such conduct,
which means that plaintiffs’ ERISA claims, and
defendants’ ERISA preemption defense, fail. We
accordingly AFFIRM the district court’s judgment
with respect to plaintiffs’ ERISA claims, REVERSE
the district court’s judgment with respect to
plaintiffs’ state-law claims, and REMAND for
further proceedings consistent with this opinion.
Each party shall bear its own costs on appeal.
AFFIRMED IN PART, REVERSED IN PART,
and REMANDED.

44a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
MISSOULA DIVISION
THE DEPOT, INC., a
Montana Corporation,
UNION CLUB BAR,
INC.,
a
Montana
Corporation,
and
TRAIL HEAD, INC., a
Montana Corporation,
on
behalf
of
themselves and all
those
similarly
situated,

CV 16-74-M-DLC
ORDER
FILED
JUN 23 2017

Clerk, US District Court
District Of Montana
Missoula

Plaintiffs,
vs.
CARING
FOR
MONTANANS, INC.,
F/K/A BLUE CROSS
AND BLUE SHIELD
OF MONTANA, INC.,
HEALTH
CARE
SERVICE CORP., and
JOHN DOES I—X,
Defendants.
Before the Court is the renewed joint motion to
dismiss of Defendants Caring for Montanans, Inc.
(“CFM”) and Health Care Service Corporation
(“HCSC”). On February 14, 2017, this Court granted

45a
Defendants’ first motion to dismiss, granting
Plaintiffs leave to amend their complaint. Plaintiffs
filed their First Amended Complaint (“FAC”) on
March 8, 2017. Defendants now argue that Plaintiffs
have failed to remedy the deficiencies identified in
this Court’s earlier order and that all claims should
be dismissed with prejudice. The Court agrees.
BACKGROUND
“On a motion to dismiss, material allegations of
the complaint are taken as admitted, and the
complaint is to be liberally construed in favor of the
plaintiff.” Kennedy v. H & M Landing, Inc., 529 F.2d
987, 989 (9th Cir. 1976).
This Court’s Order of February 14, 2017
recounts the general history leading up to the
initiation of this putative class action on June 13,
2016. Following that Order, Plaintiffs filed the
FAC. In addition to the allegations included within
the original complaint, the FAC alleges that the
relationship between Defendants and Plaintiffs
was
distinguishable
from
the
average
insured/insurer relationship because Defendants
were able to modify the terms of the insurance
arrangement during the calendar year. Plaintiffs,
all of which are small businesses, further claim that
they are uncommonly dependant on Defendants’
services due to their lack of sophistication in
selecting and administering employee benefits.
Aside from the modified factual allegations, the
FAC also presents new legal theories. Plaintiffs
allege two new claims under Montana law, claims for
fraudulent inducement and constructive fraud. They
have
reframed
their
claim
for negligent
misrepresentation, asking the Court to consider only

46a
the conduct predating the creation of the ERISA
plan.
LEGAL STANDARD
Rule 12(b)(6) motions test the legal sufficiency of
a pleading. Fed. R. Civ. P. 12(b)(6). Under Federal
Rule of Civil Procedure 8(a)(2), a complaint must
contain “a short and plain statement of the claim
showing that the pleader is entitled to relief.” “To
survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007)). A claim has facial plausibility when the
court can draw a “reasonable inference” from the
facts alleged that the defendant is liable for the
misconduct alleged. Id.
ANALYSIS
The briefings on Defendants’ renewed motion to
dismiss are largely duplicative of those filed on the
first motion to dismiss. The parties have not
presented legal argument suggesting that the Court
erred in its Order granting Defendants’ first motion
to dismiss. Thus, the Court addresses only whether
Plaintiffs’ amendments to the complaint alter the
outcome, referring generally to its earlier Order for
the relevant legal principles.
I.

Count I: Breach of Fiduciary Duty under
ERISA

The most significant differences between the
original complaint and the FAC are designed to
support Plaintiffs’ argument that Defendants are
fiduciaries under ERISA. Plaintiffs have alleged

47a
additional facts, all of which are intended to show
that the relationship between Plaintiffs and
Defendants was “extraordinary”—beyond the scope
of the normal insurer/insured relationship. Much of
Plaintiffs’ brief is targeted to this point. However,
Plaintiffs’
argument
that
this
particular
insurer/insured relationship differs from others
misconstrues Defendants’ arguments and this
Court’s earlier order. Even if the parties did not have
equal bargaining power, the relationship was
ordinary in the sense that Defendants sold insurance,
and Plaintiffs purchased that insurance. Plaintiffs
have not alleged that Defendants advised them in
any way regarding insurance products, only that
Plaintiffs depended on Defendants to consider their
best interests. While the Court is sympathetic to
Plaintiffs, particularly considering that they are
small businesses dependent primarily on an
unskilled workforce, it does not alter the Court’s
reasoning. Plaintiffs’ expectations of Defendants—
which may, indeed, include that Defendants would
act as a fiduciary should—cannot be used to support
their claim that ERISA considers Defendants to be
fiduciaries.
While it may be true that Plaintiffs were
somewhat vulnerable in negotiating their insurance
contracts with Defendants, it does not follow that
Defendants were fiduciaries with respect to the
relevant conduct—assessing and collecting premium
moneys. The FAC does not change the reasoning set
forth in this Court’s earlier Order regarding
Defendants’ alleged exercise of discretion over plan
management or administration.
First, Defendants had no discretionary
authority or control over plan management or

48a
administration, even if Plaintiffs mistakenly
believed that they did.
The phrases “plan
management” and “administration” do not refer to
an insurer’s selection of insurance products but
rather to the plan manager or administrator’s
conferral of benefits and dealings with
beneficiaries. See, e.g., Varity Corp. v. Howe, 516
U.S. 489, 502-03 (1996). In the present case, it is
Plaintiffs, not Defendants, who were fiduciaries
under the administration and management theory.
Plaintiffs’ dependence on Defendants’ insurance
expertise does not change this analysis because it
was ultimately Plaintiffs’ responsibility to manage
and administer the plan in the best interest of the
beneficiaries.
Second, even if Defendants had exercised such
control, the relevant conduct here is the imposition
and collection of premiums. Plaintiffs’ claims do not
arise from plan management and administration at
all. Rather, all of Plaintiffs’ claims are grounded in
their allegation that Defendants charged too much
for premiums and did not freely give information
about the basis for those premiums. Plaintiffs’
amendments have no effect on the Court’s analysis of
the original complaint.
Finally, for the same reasons set forth in this
Court’s Order of February 14, 2017, Plaintiffs have
not alleged that Defendants exercised authority or
control regarding management or disposition of plan
assets. As discussed in this Court’s earlier order,
plan assets may not include the assets of an insurer.
Plaintiffs argue that “Defendants exercised control
over plan assets [before the money had changed
hands] when they charged Plaintiffs (i.e., directed
them to pay) the Surcharge and the Additional

49a
Surcharge—knowing
that
Plaintiffs
would
unquestioningly pay the bills.” (Doc. 50 at 10.)
However, Plaintiffs’ argument, if accepted, would
effectively rewrite ERISA’s provision excluding an
insurer’s assets from plan assets. Again, Plaintiffs’
relative lack of sophistication demonstrates why they
may not have equal bargaining power with insurers,
but it does not mean that ERISA provides them a
cause of action.
II.

Count II: Nonfiduciary Party in Interest
Claim

Unlike the original complaint, the FAC separately
pleads a claim for equitable relief under § 502(a)(3).
Despite this alteration, the allegations relevant to
this claim are unchanged, and Plaintiffs have not
remedied the defects identified by the Court in its
earlier order.
Here, there is no issue of law to be resolved. As in
this Court’s earlier Order, there is no dispute
regarding whether the allegations fit the mold of §
502(a)(3)—they do—or about whether § 502(a)(3)
recognizes disgorgement as an equitable remedy,
even when the defendant is a non-fiduciary—it does.
The question here is simply whether Plaintiffs have
alleged facts plausibly suggesting that equitable
relief may be available in the particular
circumstances.
Plaintiffs have not met their burden. Plaintiffs
request remuneration and have alleged no facts
suggesting that the requested relief is anything
other than money damages. Plaintiffs describe their
demand as one for “appropriate equitable relief . . . ,
including but not limited to the monetary remedies
of surcharge, disgorgement of profits, and any other

50a
‘make-whole’ relief.” (Doc. 45 at 20-21.) However, as
alleged, the facts demonstrate that the relief sought
is legal in nature, not equitable. Plaintiffs claim that
Defendants profited at their expense, and Plaintiffs
seek compensation for their damages. Plaintiffs
have not alleged that the wrongful payments were
maintained in a segregated account such that equity
provides a solution.
Although the terms
“restitution” and “disgorgement” are used, the
requested relief is money damages. For the reasons
identified in this Court’s order of February 14, 2017,
Plaintiffs have no claim under § 502(a)(3).
III.

Counts III—VII: State Law Claims

Counts III through VII are grounded in state law.
In addition to those state law claims alleged in the
original complaint, Plaintiffs have brought claims for
fraudulent inducement and constructive fraud.1
Additionally, they have reworked their claim for
negligent misrepresentation. Through the changes,
Plaintiffs attempt to show that their state law claims
arose from Defendants’ conduct prior to the issuance
of the policy. The amendments are unsuccessful, and
Plaintiffs have no viable state law claim.
Plaintiffs cite to Woodworker’s Supply, Inc. v.
Principal Mutual Life Insurance Co. for the
1 Plaintiffs have also brought claims for unjust enrichment and

violation of the Montana Consumer Protection Act, which have
not been meaningfully altered following the original complaint.
Their argument in favor of these claims follows that regarding
negligent misrepresentation—they seek relief for Defendants’
conduct in negotiating the plans, which occurred before the plan
existed. Because the conduct at issue is the same that gives rise
to their claim for negligent misrepresentation, the same analysis
applies as to the claims as to negligent misrepresentations.
Thus, the claims are preempted.

51a
proposition that ERISA does not preempt a claim for
negligent misrepresentation when a plaintiff alleges
that pre-contract misrepresentations induced plan
participation. 170 F.3d 985, 991. Although this was
true in Woodworker’s Supply, which involved a claim
against an insurance agent—not a party in interest
under ERISA—it does not follow that Plaintiffs’ claim
against Defendants is similarly allowable. Plaintiffs
have not cited to a single case in which a court allowed
a similar state law claim to proceed against a party in
interest, which makes sense given that ERISA was
wholly indifferent to the agent’s conduct in
Woodworker’s Supply and to the conduct at issue in
Plaintiffs’ other cited cases. Here, however, ERISA
speaks to the allegedly wrongful conduct, preempting
Plaintiffs’ claims.
Section 502(a)(3) creates a cause of action when
a party in interest “caus[es] the plan to engage in a
transaction”
for
“more
than
reasonable
compensation.”
29 U.S.C. §§ 1106(a)(1)(C),
1108(b)(2), 1132(a)(3). However, as discussed in
Section II of this Order and this Court’s Order of
February 14, § 502(a)(3) does not provide a remedy
in this particular instance. Thus, even though
Plaintiffs, “relegated to asserting a claim only under
ERISA, [are] left without a remedy,” ERISA
preempts
Plaintiffs’
claim
for
negligent
representation. Bast v. Prudential Ins. Co. of Am.,
150 F.3d 1003, 1010 (9th Cir. 1998). Because
Plaintiffs’ claims for fraudulent inducement and
constructive fraud are premised on the same facts,
and therefore fall within the ground covered by
ERISA, these claims, too, are “alternative
enforcement mechanisms,” preempted by federal
law. N.Y. State Conf. of Blue Cross & Blue Shield

52a
Plans v. Travelers Ins. Co., 514 U.S. 645, 658
(1995).2
Accordingly, IT IS ORDERED that Defendants’
Joint Motion to Dismiss (Docs. 46, 48) is GRANTED.
Plaintiffs’ Amended Complaint (Doc. 45) is
DISMISSED with prejudice. The Clerk of Court shall
enter judgment in favor of Defendants and shall
CLOSE this Case.
DATED this 23rd day of June, 2017.
/s/ Dana L. Christensen
Dana L. Christensen, Chief Judge
United States District Court

2 Additionally, as Defendant Health Care Services Corp. points

out, Plaintiffs have not met the heightened pleading standard
required under Federal Rule of Civil Procedure 9(b) as to their
allegations of fraud.

53a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
MISSOULA DIVISION
THE DEPOT, INC., a
Montana Corporation,
UNION CLUB BAR,
INC.,
a
Montana
Corporation,
and
TRAIL HEAD, INC., a
Montana Corporation,
on
behalf
of
themselves and all
those
similarly
situated,

CV 16-74-M-DLC
ORDER
FILED
FEB 14 2017

Clerk, US District Court
District Of Montana
Missoula

Plaintiffs,
vs.
CARING
FOR
MONTANANS, INC.,
F/K/A BLUE CROSS
AND BLUE SHIELD
OF MONTANA, INC.,
HEALTH
CARE
SERVICE CORP., and
JOHN DOES I—X,
Defendants.
Before the Court is the joint motion to dismiss of
Defendants Caring for Montanans, Inc. (“CFM”) and
Health
Care
Service
Corporation
(“HCSC”).
Defendants argue that this case should be dismissed

54a
because: (1) Defendants are not fiduciaries within the
meaning of the Employee Retirement Income Security
Act of 1974 (“ERISA”) in connection with the
transactions in question; (2) ERISA provides no
equitable relief to remedy Plaintiffs’ grievances; and (3)
ERISA preempts plaintiff’s state law claims. For the
reasons below, the Court grants the motion.
BACKGROUND
“On a motion to dismiss, material allegations of
the complaint are taken as admitted, and the
complaint is to be liberally construed in favor of the
plaintiff.” Kennedy v. H & M Landing, Inc., 529 F.2d
987, 989 (9th Cir. 1976).
Plaintiffs, all of which are Montana corporations,
initiated this putative class action on June 13, 2016.
This matter arises from the so-called “Chamber
Choices” health insurance program, which had been
marketed by the Montana Chamber of Commerce
(the “Chamber”), of which Plaintiffs were members.
Plaintiffs paid premiums to Blue Cross Blue Shield of
Montana (“BCBSMT”) for employee group health
insurance coverage between 2006 and 2014. On July
31, 2013, HCSC purchased BCBSMT’s existing
health insurance business. Pursuant to that same
transaction, the entity formerly known as BCBSMT
changed its name to CFM, and HCSC began doing
business in Montana as BCBSMT.
Without informing Plaintiffs or seeking
authorization, Defendants overcharged Plaintiffs for
medical premiums in two ways. First, they assessed
surcharges which were then kicked back to the
Chamber in recognition of Chamber members’
participation in the Chamber Choices program.
Second, they assessed charges in order to purchase

55a
insurance products without first notifying and
seeking consent from Plaintiffs.
As a result of these charges, on February 10, 2014,
the Montana Commissioner of Securities and
Insurance fined BCBSMT for violations of the
Montana Insurance Code. Having learned about the
kickbacks and increased premiums from the
Insurance Commissioner’s findings, on April 17,
2014, a group of Chamber Choices participants filed
a class-action lawsuit in state court. See Mark Ibsen,
Inc. v. Caring for Montanans, Inc., 371 P.3d 446
(Mont. 2016). Their claims, brought solely under
state law, were dismissed on summary judgment.
The Montana Supreme Court affirmed, finding that
the plaintiffs had no claim under Montana’s
statutory or common law.
Subsequently, Plaintiffs filed their complaint in
this Court, bringing state and federal claims.
Defendant Caring for Montanans (“CFM”) filed a
motion to dismiss and a motion to stay discovery on
August 9, 2016. Defendant Health Care Service
Corporation (“HCSC”) joined both motions on August
11, 2016. This Court denied Defendants joint motion
to stay discovery on December 7, 2016.
LEGAL STANDARD
Rule 12(b)(6) motions test the legal sufficiency of a
pleading. Fed. R. Civ. P. 12(b)(6). Under Federal
Rule of Civil Procedure 8(a)(2), a complaint must
contain “a short and plain statement of the claim
showing that the pleader is entitled to relief.” “To
survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting

56a
Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
(2007)). A claim has facial plausibility when
court can draw a “reasonable inference” from
facts alleged that the defendant is liable for
misconduct alleged. Id.

570
the
the
the

ANALYSIS
I. Count I: Breach of Fiduciary Duty under
ERISA
Plaintiffs have brought a claim for breach of
fiduciary duty under ERISA § 502(a)(2). To sustain
this claim, Plaintiffs must allege that Defendants
acted as fiduciaries to Plaintiffs’ health plan. ERISA
provides:
a person is a fiduciary with respect to a plan
to the extent (i) he exercises any
discretionary authority or discretionary
control respecting management of such plan
or exercises any authority or control
respecting management or disposition of its
assets, (ii) he renders investment advice for
a fee or other compensation, direct or
indirect, with respect to any moneys or other
property of such plan, or has any authority
or responsibility to do so, or (iii) he has any
discretionary authority or discretionary
responsibility in the administration of such
plan.
ERISA § 3(21), 29 U.S.C. § 1002(21)(A). Further, the
person must be “acting as a fiduciary (that is, was
performing a fiduciary function) when taking the
action subject to complaint.” Pegram v. Herdrich,
530 U.S. 211, 226 (2000).

57a
As applied to the facts alleged in the Complaint,
the issue is whether Defendants were acting as
fiduciaries when they charged more than Plaintiffs
would have agreed to pay had Plaintiffs known where
the money would ultimately be spent.
Plaintiffs claim that Defendants acted as
fiduciaries under either of two theories: (1) that
Defendants “exercise[d] any discretionary authority
or discretionary control respecting management of
[the] plan”; or (2) that Defendants “exercise[d] any
authority or control respecting management or
control of [plan] assets.” 29 U.S.C. § 1002(21)(A)(i).
More simply, Plaintiffs assert that Defendants were
fiduciaries because of either plan management or
asset spending.
A. Management of the Plan
Plaintiffs contend that Defendants are fiduciaries
in regard to plan management for two reasons: (1)
plan documents grant managerial authority to
Defendants; and (2) the Defendants actually acted as
plan managers in regard to the conduct at issue in
the Complaint.
1. Plan Documents
Plaintiffs argue that the terms of the plan’s
member guide1 demonstrate that Defendants acted
in a managerial capacity with regard to the plan. As
relevant here, the member guide provides:
The Plan may make administrative changes
or changes in dues, terms or Benefits in the
1 The member guide’s authenticity is undisputed, and both

parties cite to it in various pleadings. The Court takes judicial
notice of the guide.

58a
Group Plan by giving written notice to the
Group and/or purchasing pool member at
least 60 days in advance of the effective date
of the changes. Dues may not be increased
more than once during a 12-month period,
except as allowed by Montana law.
No change in the Group Plan will be valid
unless in writing and signed by the
President of Blue Cross and Blue Shield of
Montana. No other agent or representative
or employee of The Plan may change any
part of this Member Guide.
(Doc. 9-1 at 60.) The guide defines “Group Plan” as
“The Contract between [BCBSMT] and the Group”
and “The Plan” as BCBSMT. (Doc. 9-1 at 71, 76.)
Plaintiffs claim that the terms set forth in the
member guide conclusively demonstrate that
Defendants were fiduciaries under ERISA. Under
their theory, the reservation of the right to make
“administrative changes or changes in dues, terms,
or Benefits” constitutes the “exercise [of] any
discretionary authority or discretionary control
respecting management of [the] plan.” 29 U.S.C. §
1002(21)(A)(i).2 The Court disagrees.

2 Although Plaintiffs do not raise this argument, the Court notes

that the terms of the member guide may more closely align with
29 U.S.C. § 1002(21)(A)(iii), which provides that an entity may
be a fiduciary if it “has any discretionary authority or
discretionary responsibility in the administration of such plan.”
However, the analysis would essentially be the same, as the
issue is whether Defendants were fiduciaries with respect to the
conduct at issue—imposing excessive fees.
29 U.S.C. §
1002(21)(A)(iii).

59a
Nothing about the member plan or the allegations
in the Complaint suggest that the relationship
between Defendants and Plaintiffs differed from that
of the ordinary participant/insurer relationship. If
the Court were to apply Plaintiffs’ argument in
another case, for example, an insurer could be
determined to be a fiduciary whenever it increased or
decreased rates, even if those rates were entirely
reasonable. Such a broad finding of fiduciary status
for insurers—as Plaintiffs seek—could transform the
insurance industry. See § 1104(a)(1) (“[A] fiduciary
shall discharge his duties with respect to a plan solely
in the interest of the participants and
beneficiaries . . . .”). The plan documents do not give
rise to a finding that Defendants were fiduciaries in
regard to the alleged overcharges.
2. Actual Exercise of Discretion
Plaintiffs
also
argue
that
Defendants
“exercise[d] any discretionary authority or
discretionary control respecting management of
[the] plan” by charging for kickbacks and unwanted
products. 29 U.S.C. § 1002(21)(A)(i). As alleged in
the Complaint, Defendants’ relevant conduct
includes assessing inflated premiums and failing to
fully inform Plaintiffs where premium money will
be spent. Plaintiffs’ theory appears to be that
fiduciary status arises from the secretive nature of
the
rate-setting—that,
because
Defendants
described the additional fees with “cryptic
notations,” they concealed the rates from the
Plaintiffs, essentially overriding Plaintiffs’ authority
and control over management. However, if these
facts may give rise to an ERISA claim for breach of
fiduciary duty, it must be because Defendants

60a
interfered with the spending of plan assets, not with
management or control of the plan itself.
As with Plaintiffs’ argument that the member
guide gives rise to a finding the Defendants were
fiduciaries, this theory fails because it is
insufficiently connected to Defendants’ relevant
conduct. In certain circumstances, an insurer may
exercise discretionary authority or control over plan
management when it improperly denies benefits.
Spinedex Physical Therapy USA Inc. v. United
Healthcare of Arizona, Inc., 770 F.3d 1282, 1297-98
(9th Cir. 2014). Defendants concede that they would
be fiduciaries if Plaintiffs’ claims arose from denial
of benefits. However, here the relevant conduct is
Defendants’ assessment and use of premium
moneys. It has nothing to do with how the plan was
administered, and so it cannot be that, in regard to
the conduct at issue in this litigation, Defendants
“exercise[d] any discretionary authority or
discretionary control respecting management of [the]
plan.” 29 U.S.C. § 1002(21)(A)(i).
B. Management or Control over Plan Assets
Thus, if Defendants are fiduciaries under ERISA,
it must be because they “exercise[d] any authority or
control respecting management or control of [plan]
assets.” 29 U.S.C. § 1002(21)(A)(i). Resolution of this
issue depends on whether the premiums charged to
Plaintiffs and spent by Defendants were plan assets.
If they are, Defendants—by imposing fees for
products
undisclosed
to
Plaintiffs—certainly
exercised sufficient control such that Plaintiffs’ claim
may survive. See, e.g., Hi-Lex Controls, Inc. v. Blue
Cross Blue Shield of Michigan, 751 F.3d 740, 743-44
(6th Cir. 2014). If not, however, the claim necessarily
fails.

61a
Defendants argue that once the premium monies
changed hands, they were no longer plan assets.
Essentially, Defendants’ argument is that ERISA
does not prevent an insurer from doing what it
wishes with the funds it collects from plan
participants because insurers have no duty to
participants with respect to the insurers’ own money.
As the Ninth Circuit has stated, ERISA does not
expressly define “plan assets” and should be
construed to serve ERISA’s purpose of protecting
beneficiaries and participants from “misuse and
mismanagement
of
plan
assets
by
plan
administrators.” Acosta v. Pac. Enters., 950 F.2d 611,
620 (9th Cir. 1991) (quoting Mass. Mut. Life Ins. Co.
v. Russell, 473 U.S. 134, 140 n.8 (1985)). Although it
lacks a clear definition of the term, ERISA does
include an express limitation, relevant here: “In the
case of a plan to which a guaranteed benefit policy is
issued by an insurer, the assets of such plan shall be
deemed to include such policy, but shall not, solely by
reason of the issuance of such policy, be deemed to
include any assets of such insurer.” 29 U.S.C. §
1101(b)(2).
As both parties ably argue, the cases cited by their
opponent—nearly all from other jurisdictions—are
readily distinguishable from the facts alleged.
However, the Court need not turn to case law to
resolve this controversy, as the answer is found in
ERISA itself. Here, Plaintiffs have brought a claim
against insurers, not plan administrators, and the
Court cannot consider the broad legislative purpose
of protecting participants described in Acosta. As
Defendants point out, Plaintiffs have not alleged that
they were billed amounts “in excess of the numerical
levels agreed upon.” (Doc. 9 at 8.) Although the

62a
Court accepts the facts set forth in the Complaint as
true, it must find that the premium monies became
“assets of [the] insurer” after they changed hands. 29
U.S.C. § 1101(b)(2). Whether it is a feature or a bug,
ERISA § 502(a)(2) does not allow a cause of action
against an insurer under the circumstances
presented.
II. Count I: Nonfiduciary Party in Interest
Claim under ERISA
The parties also dispute whether, if Defendants
are not fiduciaries, Count I may proceed under
ERISA § 502(a)(3). This section provides that a
participant or fiduciary may bring a civil action to
“(A) to enjoin any act or practice which violates any
provision of this subchapter or the terms of the plan,
or (B) to obtain other appropriate equitable relief (i)
to redress such violations or (ii) to enforce any
provisions of this subchapter or the terms of the
plan[.]” 29 U.S.C. § 1132(a)(3).
Defendants do not dispute that the facts alleged
in the Complaint meet the requirements of §
502(a)(3). This section creates a cause of action
against “part[ies] in interest” for conduct that
violates ERISA. See 29 U.S.C. § 1002(14); Harris
Trust & Say. Bank v. Salomon Smith Barney, Inc.,
530 U.S. 238, 248-49 (2000). A “party in interest” is
“a person providing services to a plan”; at minimum,
Defendants underwrite and adjudicate claims,
meeting this definition. 29 U.S.C. § 1002(14)(B). A
fiduciary may sue a party in interest when the party
in interest knowingly participates in a transaction
for services for which more than reasonable
compensation is paid. 29 U.S.C. §§ 1106(a)(1)(C),
1108(b)(2); see Harris Trust, 530 U.S. at 248-49.
Here, by alleging that Defendants imposed

63a
unreasonable charges for kickbacks and unasked-for
benefits, Plaintiffs have alleged conduct that
arguably falls under the purview of § 502(a)(3),
although such a claim is not alleged in Count I of the
Complaint.
The dispute on this issue arises with respect to
whether Plaintiffs have a remedy under § 502(a)(3).
Plaintiffs cannot seek injunctive relief, as Defendants
have not assessed charges for kickbacks or unwanted
insurance projects since 2014. In order to succeed on
this theory, Plaintiffs must establish that they are
entitled to “other appropriate equitable relief.” 29
U.S.C. § 1132(a)(3).
Plaintiffs have requested
restitution and/or disgorgement, and the parties
disagree as to whether the remedies sought are
legal—and therefore outside the scope of ERISA—or
equitable.
Under ERISA § 502(a)(3), only equitable relief is
available.
Restitution may be either legal or
equitable; “whether the remedy a plaintiff seeks is
legal or equitable depends on (1) the basis for the
plaintiffs claim and (2) the nature of the underlying
remedies sought.” Montanile v. Bd. of Trs, of Nat’l
Elevator Indus. Health Benefit Plan, 136 S. Ct. 651,
657 (2016) (internal quotation marks, brackets, and
citation omitted). The inquiry is historical, turning
on whether a court of equity, as opposed to a court
of law, may have ordered the remedy in the “the
period before 1938 when courts of law and equity
were separate.” Id. To make this determination,
the U.S. Supreme Court turns to “standard equity
treatises.” Id at 658.
As noted above, the parties do not dispute
whether “the basis for the plaintiffs claim” falls under
§ 502(a)(3). Id at 657. Rather, argument is directed

64a
to “the nature of the underlying remedies sought.”
Id.
Plaintiffs’ requested remedies are solely
pecuniary. Where the defendant is a fiduciary under
ERISA, a plaintiff may recover monetary damages as
an equitable remedy under ERISA § 502(a)(3).
CIGNA Corp. v. Amara, 563 U.S. 421, 441-42 (2011).
As discussed above, Plaintiffs have not alleged that
Defendants were fiduciaries under ERISA law. Thus,
“make-whole” relief is not available. See id.; see also
Bast v. Prudential, 150 F.3d 1003, 1010-11 (9th Cir.
1998). The question remains whether restitution or
disgorgement may be considered equitable in
consideration of the allegations of the Complaint.
Under Montanile, to which both parties cite, a
party cannot recover in equity unless the funds have
been maintained in a segregated account. Montanile,
136 S. Ct. at 658-59. “Equitable remedies are, as a
general rule directed against some specific thing;
they give or enforce a right to or over some particular
thing rather than a right to recover a sum of money
generally out of the defendant’s assets.” Id. (internal
quotation marks, ellipses, and citation omitted).
Although this rule ostensibly allows a defendant to
escape liability simply by spending or commingling
funds, it is nonetheless the rule. See id. at 662
(Ginsburg, J., dissenting) (describing the outcome of
Montanile as “bizarre”).
Plaintiffs argue that Montanile should not apply
because the defendant in that case was a beneficiary
rather than an insurer. Although the case is
certainly factually distinguishable, its holding
regarding the remedies available under ERISA §
502(a)(3) applies in the circumstances here.
Plaintiffs have cited to no authority supporting their
argument that restitution and/or disgorgement may

65a
be considered an equitable remedy when it is
recovered from the general fund of a defendant that
is not a fiduciary.
Here, Plaintiffs have not alleged that the
overcharges have been kept in a segregated account.
In their brief, they argue that “the funds in
question . . . are among those that have been set
aside in the separate repository that is [Caring for
Montanans] . . . .”
(Doc. 29 at 18 (emphasis
removed).) However, in the Complaint, Plaintiffs
allege that all public assets were transferred from
Blue Cross Blue Shield to Caring for Montanans
when Health Care Services Corporation acquired the
health insurance business of Blue Cross Blue Shield.
Thus the Court cannot “enforce a right to or over” the
specific portion of the premium monies that went to
kickbacks or unwanted insurance products.
Montanile, 136 S. Ct. at 662. If restitution or
disgorgement were to be ordered, it would necessarily
be from a general fund, and it would be equivalent to
money damages. See, e.g., Bast v. Prudential Ins. Co.
of America, 150 F.3d 1003, 1011 (9th Cir. 1998).
Because of this defect, Plaintiffs cannot proceed with
a claim under ERISA § 502(a)(3) at this time.
III.

Counts II—VII: State Law Claims

Counts II through VII are grounded in state law.
Plaintiffs bring state law claims for: breach of
contract; breach of the implied covenant of good faith
and fair dealing; negligent misrepresentation; breach
of fiduciary duty; unjust enrichment; and violations
of Montana’s Consumer Protection Act. Defendants
argue that the claims are preempted under two
separate theories: conflict preemption and express
preemption. Because it determines that the claims

66a
are expressly preempted, the Court does not reach
the issue of conflict preemption.
ERISA § 514(a) provides that ERISA
“supersede[s] any and all State laws insofar as they
may now or hereafter relate to any employee benefit
plan.” 29 U.S.C. § 1144(a). The scope of § 514(a) is
broad but not unlimited; it preempts any state law
that has a “connection with” or “reference to” an
employee-benefit plan. N.Y. State Conf of Blue
Cross & Blue Shield Plans v. Travelers Ins. Co., 514
U.S. 645, 654-656; Gobeille v. Liberty Mut. Ins. Co.,
136 S. Ct. 936, 943 (2016). A law has “reference to”
ERISA plans “[w]here a State’s law acts
immediately and exclusively upon ERISA plans . . .
or where the existence of ERISA plans is essential
to the law’s operation[.]” Gobeille, 136 S. Ct. at 943
(quoting Cal. Div. Of Labor Standards Enforcement
v. Dillingham Constr., NA., Inc., 519 U.S. 316, 325
(1997)). A law has an impermissible “connection
with” an employee benefit plan when it “governs . . .
a central matter of plan administration”; “interferes
with nationally uniform plan administration”; or
“force[s] an ERISA plan to adopt a certain scheme of
substantive coverage or effectively restrict[s] its
choice of insurers.” Id. (citations and internal
quotation marks omitted).
The parties agree that the relevant inquiry is
whether Plaintiffs’ claims brought under state law
have an impermissible “connection with” ERISA
plans. Under this theory, state law claims are
preempted when they “provid[e] alternative
enforcement mechanisms,” Travelers, 514 U.S. at 658
(citing Ingersoll-Rand Co. v. McClendon, 498 U.S.
133, 141), even where the state law is not “specifically
designed to affect employee benefit plans.” Pilot Life

67a
Ins. Co. v. Dedeaux, 481 U.S. 41, 47-48 (1987)
(quoting Shaw v. Delta Air Lines, 463 U.S. 85, 97
(1983)). Defendants argue that Plaintiffs’ claims are
“alternative enforcement mechanisms” because the
alleged wrongful conduct falls within the boundaries
of ERISA law despite the lack of relief available to
Plaintiffs. Plaintiffs, on the other hand, contend that
Defendants cannot logically argue both that
Plaintiffs’ claims are preempted and that Defendants
are non-fiduciaries.
The Court agrees with
Defendants that ERISA expressly preempts
Plaintiffs’ state-law claims.
Plaintiffs have alleged: (1) breach of contract; (2)
breach of the implied covenant of good faith and fair
dealing; (3) negligent misrepresentation; (4) breach of
fiduciary duty; (5) unjust enrichment; and (6)
violation of the Montana Consumer Protection Act.
However, all causes of action arise from the precise
set of facts Plaintiffs claim give rise to a cause of
action under ERISA. Although Plaintiffs allege
violation of laws that are not specifically targeted at
employee benefit plans, the claims themselves have
an unlawful “connection with” ERISA plans. If the
claims were to survive, the Court would essentially
allow the creation of “alternative enforcement
mechanisms”—means by which the Plaintiffs could
bring what would be a claim under ERISA if ERISA
did not have the specific exceptions and limitations
discussed in the foregoing analysis. Defendants’
allegedly wrongful conduct falls squarely within the
scope of ERISA; it just happens to be the unfortunate
case that the precise facts alleged in the Complaint
do not give rise to an ERISA claim.
Plaintiffs’ state-law claims are expressly
preempted, and the Complaint must be dismissed in

68a
its entirety. However, Plaintiffs shall have the
opportunity to amend their Complaint to remedy the
defects identified in this Order.
Accordingly, IT IS ORDERED that Defendants’
Joint Motion to Dismiss (Docs. 8, 13) is GRANTED.
Plaintiffs’ Complaint (Doc. 1) is DISMISSED with
leave to amend. Plaintiffs may file an amended
Complaint within twenty-one days of the date of this
Order.
DATED this 14th day of February, 2017.
/s/ Dana L. Christensen
Dana L. Christensen, Chief Judge
United States District Court

69a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
THE DEPOT, INC.;
UNION CLUB BAR,
INC.; TRAIL HEAD,
INC.,

No. 17-35597

Plaintiffs-Appellants,

D.C. No. 9:16-cv-00074DLC
District of Montana,
Missoula

v.

ORDER

CARING FOR
MONTANANS, INC.,
FKA Blue Cross and
Blue Shield of
Montana, Inc.,
HEALTH CARE
SERVICE CORP.,

FILED
MAR 15 2019

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DefendantsAppellees.
Before: W. FLETCHER and BYBEE, Circuit Judges,
and BURNS, Chief District Judge.
The panel judges have voted to deny defendants’
petition for panel rehearing. Judges W. Fletcher and
Bybee have voted to deny defendants’ petition for
rehearing en banc, and Judge Burns has
 The Honorable Larry A. Burns, Chief United States District

Judge for the Southern District of California, sitting by
designation.

70a
recommended denying defendants’ petition for
rehearing en banc. The full court has been advised of
the petition for rehearing en banc, and no judge has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
Accordingly, defendants’ petition for panel
rehearing and rehearing en banc (Dkt. No. 62) is
DENIED.

71a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
MISSOULA DIVISION
THE DEPOT, INC., a
Montana Corporation,
UNION CLUB BAR,
INC.,
a
Montana
Corporation,
and
TRAIL HEAD, INC., a
Montana Corporation,
on
behalf
of
themselves and all
those
similarly
situated,

CV 16-74-M-DLC
JUDGMENT IN A
CIVIL CASE
[Filed June 23, 2017]

Plaintiffs,
vs.
CARING
FOR
MONTANANS, INC.,
F/K/A BLUE CROSS
AND BLUE SHIELD
OF MONTANA, INC.,
HEALTH
CARE
SERVICE CORP., and
JOHN DOES I—X,
Defendants.
Jury Verdict. This action came before the
Court for a trial by jury. The issues have been tried
and the jury has rendered its verdict.

72a
X
Decision by Court. This action came before
the Court for bench trial, hearing, or determination
on the record. A decision has been rendered.
IT IS ORDERED AND ADJUDGED that
judgment is entered in favor of Defendants in
accordance with this Court’s Order dated June 23,
2017.
Dated this 23rd day of June, 2017.
TYLER P. GILMAN, CLERK
By: /s/ Nicole Stephens
Nicole Stephens, Deputy Clerk

